<html>
<title> - HUMAN RIGHTS AND DEMOCRATIC REFORM IN IRAN</title>
<body><pre>[Senate Hearing 112-104]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-104

               HUMAN RIGHTS AND DEMOCRATIC REFORM IN IRAN

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 11, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






         Available via the World Wide Web: http://www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
68-325 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

BARBARA BOXER, California            JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         MIKE LEE, Utah
CHRISTOPHER A. COONS, Delaware       MARCO RUBIO, Florida
TOM UDALL, New Mexico                JOHNNY ISAKSON, Georgia

                              (ii)        













                            C O N T E N T S

                              ----------                              
                                                                   Page

Apostolou, Andrew, senior program manager, Freedom House, 
  Washington, DC.................................................    24
    Prepared statement...........................................    26
Bakhtiar, Rudi, communications director, International Campaign 
  for Human Rights in Iran, New York, NY.........................    20
    Prepared statement...........................................    23
Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................     1
Dibble, Philo L., Deputy Assistant Secretary of State for Near 
  Eastern Affairs, U.S. Department of State, Washington, DC......     8
    Prepared statement...........................................     6
Hosseini, Kambiz, Voice of America, Washington, DC...............    31
    Prepared statement...........................................    33
Posner, Hon. Michael H., Assistant Secretary of State, Bureau for 
  Democracy, Human Rights, and Labor, U.S. Department of State, 
  Washington, DC.................................................     4
    Joint prepared statement of Michael H. Posner and Philo 
      Dibble.....................................................     6

                                 (iii)

  

 
                      HUMAN RIGHTS AND DEMOCRATIC
                             REFORM IN IRAN

                              ----------                              


                        WEDNESDAY, MAY 11, 2011

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, Jr. (chairman of the subcommittee) presiding.
    Present: Senators Casey, Shaheen, Udall, and Risch.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. This hearing of the subcommittee will come 
to order.
    I want to thank everyone for being here. We're getting 
started almost exactly on time, which is a good thing for us to 
do once in a while around here.
    I'm grateful for this opportunity to chair this hearing, 
and grateful to our witnesses for providing their time and 
their testimony and their work. I'm also grateful to those in 
the audience for joining us today.
    I think it's an understatement to say that we're witnessing 
a historic time in the world, especially as it relates to the 
change in the Middle East. We know that, earlier this year, few 
could have predicted that the popular uprisings in Tunisia and 
Egypt would soon spread to neighboring countries, such as 
Libya, Yemen, Bahrain, and most recently to Syria. The so-
called ``Arab Spring'' has inspired prodemocracy movements 
across the region and activists across the world. Given these 
momentous political changes, it's all the more important that 
we take a closer look at the status of democratic reform in 
Iran, where authoritarian regime forces continue to repress 
political opposition activists and commit deplorable--
deplorable--human rights violations against their own citizens.
    Iran's opposition movement poses perhaps the most 
significant challenge to the Islamic regime. And I think that 
it is the most significant challenge that we've seen since the 
regime was founded in 1979. The prodemocracy movement gained 
momentum in the wake of the 2009 disputed Presidential 
election, as protestors filled the streets of Tehran, demanding 
an end to government oppression and calling for democratic 
reforms such as freedom of speech and assembly--the same 
freedoms being demanded by scores of protestors across the 
Middle East today.
    While Iran's deplorable human rights record predates the 
post-election crackdown, the human rights crisis has deepened 
significantly in recent years. Since the demonstrations in 
2009, security forces have used live ammunition to suppress 
protestors, killing at least seven and arresting more than 600 
individuals, according to Human Rights Watch.
    Many of us recall with outrage the horrific death, in 2009, 
of Neda Soltan, a young protester shot to death in the streets 
of Tehran during the post-election crackdown. Neda is just one 
of many innocent victims of the Iranian Government's relentless 
use of force and oppression against Iranian citizens. As we sit 
here today, scores of activists are imprisoned for their 
efforts to bring political change to Iran.
    Let me describe just a few. As you can tell, we don't have 
our posters, yet, with pictures. But, we will have them, 
momentarily, to help us to go through and to highlight not just 
facts and information about these individuals, but a little bit 
about what they actually look like. And I think that that is 
something we need to do more often.
    The first person that I'll highlight is Nasrin Sotoudeh, a 
lawyer and a women's rights activist currently serving an 11-
year sentence for her work defending juveniles and women in 
Iran. She is the mother of two and has been held in Iran's 
notorious Evin Prison since September 2010. Nasrin has been on 
hunger strikes three times to protest her mistreatment, which 
has increasingly diminished her health. And her husband has 
been pressured, threatened, and detained for advocating for his 
wife.
    Next, the second person that I'll highlight this morning is 
Navid Khanjani, who is a 23-year-old student activist and 
defender of the rights of the Baha'i community, Iran's largest 
non-Muslim religious minority, which has been the victim of 
state-sponsored persecution since the 1979 Islamic Revolution. 
Navid faces a 12-year prison sentence, the longest that Iran 
has given to a human rights activist for speaking out against 
the government's ban against members of the Baha'i community 
attending universities. Navid spent 65 days in Evin Prison, the 
first 25 of which were in solitary confinement. He was forced 
to record false confessions and experience brutal beatings and 
torture.
    I should also mention that seven members of the Baha'i 
group, the Yaran-i-Iran, meaning ``Friends in Iran,'' were also 
arrested and imprisoned 3 years ago. They are currently serving 
a 20-year sentence in Evin Prison.
    Third, I'll highlight one more person this morning. And, of 
course, we could highlight many, but we don't have time for 
hundreds here today. Mahdieh Golroo, a 25-year-old women's 
rights activist, was imprisoned, along with her husband, in 
November 2009, after security forces raided their home. After 
being expelled from her university and denied her degree, 
Mahdieh received a 28-month prison sentence for ``antistate 
propaganda'' and ``assembly and conspiracy to disturb public 
order.'' Those are the charges that have been lodged against 
her, which she, of course, denies. She is currently being held 
in the women's ward of Evin Prison and has been repeatedly 
denied visitation rights and the right to medical treatment for 
medical problems, which her family says pose serious dangers to 
her health. She, too, has gone on multiple hunger strikes to 
protest her treatment.
    So, these are just a few--very few--of those who are 
suffering in Iranian prisons as we speak, as we gather here 
today, with all the freedoms we enjoy in this country.
    Now more than ever, the United States must stand in support 
of these brave activists, just as we supported the courageous 
political dissidents, like Alexander Solzhenitsyn and Andre 
Sakharov, who spoke out against the repressive Soviet regime. 
It is our duty to bear witness to the truth of the plight of 
the Iranian opposition, and signal our unwavering support for 
their ongoing struggles against this repressive regime.
    The United States must also work with the international 
community to hold the Iranian regime accountable for human 
rights abuses. In 2010, I introduced a bipartisan resolution 
calling for a renewed focus on the Iranian regime's violations 
of internationally recognized human rights, as found in the 
Universal Declaration of Human Rights. The United Nations 
establishment, in March, of a Special Rapporteur on Human 
Rights in Iran is a welcome step, but more needs to be done to 
address these serious concerns that we all have. People from 
both political parties and from all walks of life have these 
very serious concerns.
    In September 2010, the administration sanctioned eight 
Iranian officials determined to have committed serious human 
rights abuses in the post-2009 crackdown. And I was pleased to 
see the addition of the Tehran prosecutor, Abbas Dowlatabadi, 
and the commander, Reza Naqdi, in February of this year.
    However, as I and Senator Menendez and Senator Cardin wrote 
in a letter to Secretary Clinton on April 20, we must enhance 
our efforts to prioritize the humane treatment of the Iranian 
people through the framework of existing United States 
sanctions on Iran. The European Union's recent sanctioning of 
32 regime officials involved in human rights abuses, including 
asset freezes and travel bans, is a welcome development. And we 
should continue to work with our European partners to ratchet 
up the pressure on the regime.
    The United States can assist the Iranian opposition 
movement by enacting measures to prevent the Iranian 
Government's suppression of electronic communication. 
International companies have reportedly provided goods and 
technologies, including cell phone monitoring equipment and 
Web-spying capabilities that help the regime suppress Iranian 
citizens. I firmly support current and future efforts to hold 
these companies accountable and to help prodemocracy forces in 
Iran circumvent the regime's efforts to disrupt and prevent 
their communications with activists in Iran and around the 
world.
    Let me be unequivocally clear. The United States must 
continue to engage our international partners to find ways to 
support the democratic movement in Iran and to hold the Iranian 
regime accountable to its international human rights 
obligations. We must not be reluctant to support political 
activists who are courageous enough to demonstrate in the face 
of extreme government repression. The United States has a moral 
obligation--let me say that again--the United States has a 
moral obligation to stand in support of the Iranian people's 
struggle for democracy.
    Today's first panel will include testimonies from two State 
Department officials who deal with these issues on a daily 
basis.
    Michael Posner is the Assistant Secretary of State for 
Democracy, Human Rights, and Labor. He leads the State 
Department's comprehensive efforts to support Internet freedom 
around the world, an initiative that I strongly support. And, 
before joining the administration, he was the executive 
director, and then president, of Human Rights First.
    Next we have, from the administration as well, Mr. Philo 
Dibble who is Principal Deputy Assistant Secretary of State for 
Near Eastern Affairs and a career member of the Foreign 
Service. He has served in the Near East Affairs Bureau since 
2003.
    I look forward to hearing both of their testimonies today 
about how we assess the political strength of the opposition 
movement in Iran, ways the administration is working to 
highlight human rights abuses there, and steps we can take to 
support democratic reform in the country.
    Now, our second panel includes three individuals with 
intimate knowledge of the political environment inside of Iran.
    Mr. Kambiz Hosseini is a cohost of ``Parazit'', which is 
the popular Persian-language satirical television show 
broadcast on Voice of America's Persian service. Launched prior 
to the 2009 election, it is a reference to the Iranian 
Government's repeated attempts to jam foreign satellite 
programming.
    Mr. Andrew Apostolou is a senior program manager at Freedom 
House, where he chairs the Iran Strategy Task Force, which 
serves to formulate new approaches to the United States foreign 
policy on Iran, with a focus on human rights.
    And finally, Ms. Rudi Bakhtiar is communications director 
for the International Campaign for Human Rights in Iran, an 
organization that seeks to gather support for human rights 
activists and defenders in Iran. She is also an Iranian-
American journalist who has over 10 years of experience working 
for international news networks.
    I welcome all of our panelists today and look forward to 
hearing their assessment of how the U.S. Government can work to 
support democratic reform in Iran.
    And now I will move to our first witness for an opening 
statement.
    I know that, as members come in, we'll have not only 
questions from members, but we may have some statements, as 
well.
    But, let's move, first, to Assistant Secretary of State for 
Democracy, Human Rights, and Labor, Michael Posner.

  STATEMENT OF HON. MICHAEL H. POSNER, ASSISTANT SECRETARY OF 
     STATE, BUREAU FOR DEMOCRACY, HUMAN RIGHTS, AND LABOR, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Posner. Thank you. Thank you very much, Chairman Casey, 
and for holding this important hearing.
    Deputy Assistant Secretary Dibble and I have a written 
statement that I'd ask be submitted to the record.
    You said, in your----
    Senator Casey. Your statement will be submitted. As would 
be true of anyone submitting a statement today, your full 
statement will be made part of the record.
    Mr. Posner. Great, thank you.
    As you said in your opening comments, now more than ever we 
need to be redoubling our efforts to both speak out about the 
systematic violations of human rights and democracy in Iran, 
but also to engage our allies and to amplify the voices of 
democratic activists inside of Iran.
    This administration is firmly committed, deeply committed, 
to promoting democracy, promoting human rights everywhere in 
the world. And, as we see, and as you commented, all of the 
changes going on in the Middle East region, the repressive 
crackdown, continued crackdown in Iran is such a stark reminder 
of unfinished business that we need to be attentive to.
    So, I want to say a few words about our speaking out, a few 
words about our efforts to engage multilaterally, and then what 
we're trying to do, via the Internet, to amplify the voices of 
Iranian dissidents and activists.
    You've cited a number of cases in your opening statement. I 
could give you many more; they're in our testimony. But, just 
to give a flavor: In February, a number of protestors were 
killed in Tehran. In April, more killed in ethnic Arab areas. 
We've paid a lot of attention to the fate of the Baha'i 
community. And seven leaders of that community who had prison 
sentences reduced from 20 to 10 years, had those sentences 
reinstated, the reductions reversed. People in prison are given 
added sentences because they send letters to their family 
members. Political prisoners are held with common criminals and 
murderers in stockyards, in terrible conditions. The list goes 
on and on.
    We've seen executions, this year, of 135 people, including 
many ethnic minority prisoners, their intense restrictions on 
free speech; teachers and other workers who seek to assert 
their rights are repressed for doing so. Universities that 
teach liberal arts are deemed un-Islamic and they've been 
forced to close their doors. It's really an appalling list of 
restrictions on everything contained in the Universal 
Declaration of Human Rights.
    I want to single out a couple of other particular cases, in 
addition to the ones you mentioned.
    One is a distinguished labor leader, Monsour Osanloo, who 
was arrested in 2007. He suffers from a heart condition and 
they repeatedly deny him medical care. Student leader, Bahriya 
Hedayat, who was arrested in 2009, for the fifth time in 4 
years, for being a member of the One Million Signatures 
campaign, a women's movement to changes laws that discriminate 
against women. She faces further charges for sending a public 
letter describing the conditions in prison.
    And I want to also--you mentioned Nasrin Sotoudeh, who's 
also the lawyer for Shirin Ebadi. In addition to the harsh 
prison conditions she's suffering from, other members of 
Ebadi's Center for Human Rights Defenders have been jailed or 
barred from practicing law.
    The list goes on and on.
    President Obama, Secretary Clinton, and other senior 
members of the administration are constantly speaking out about 
these abuses. And we will continue to do so.
    We're also engaging, as you mentioned in your opening, in 
spotlighting Iran's gross violations of human rights at the 
U.N. and with our allies. We were successful, in March, in 
persuading the U.N. Human Rights Council to establish a Special 
Rapporteur on Iran. In June, that person will be selected and 
will begin monitoring and throwing more of a spotlight on 
what's going on.
    The intensity of Iran's resistance to that speaks to the 
importance of our doing so. And I'm very proud of the effort of 
our team and our government to play a leading role in really 
getting that resolution to be passed. We will continue to use 
the U.N., both in Geneva and in New York, as a forum for 
raising these issues and for, as you say, accelerating the 
pressure on the regime.
    We've also been involved and are very aware that change in 
Iran, and every country, starts from within. And Iran has a 
brave, courageous population, many young people who are 
determined to change their destiny and who are seeking to 
amplify their voices. We seek to help them.
    As you know, through Congress' generosity, we have spent 
$22 million, in the last 18 months, on Internet freedom 
programming. And just last week, we've notified Congress of our 
intent to spend another $28 million more, this spring. We're 
going to do that quickly. And it's, in part, to counter Iran's 
increasingly active Internet surveillance and censorship. We're 
supporting grants that will counter censorship--
countercensorship technologies, increase circumvention tools in 
Farsi, secure mobile communications, and protect online 
activists against cyber attacks, which you also mentioned.
    We've now trained 5,000 activists worldwide, including 
Iranians, in cyber self-defense. And we plan to expand all of 
these efforts to teach democratic activists, journalists, 
bloggers, human rights defenders, and others how to protect 
their online privacy and their data so that they, in turn, can 
train others.
    We're also very determined and will continue to support 
their efforts to convey their own messages, to speak in a loud 
voice with each other and with the rest of the world. These are 
tools, but they're important tools, and they're an important 
part of our overall effort to try to keep pressure on the 
Iranian Government and to make sure that people in Iran know 
that we haven't forgotten about them.
    Thank you very much.
    [The joint prepared statement of Mr. Posner and Mr. Dibble 
follows:]

   Joint Prepared Statement of Michael H. Posner and Philo L. Dibble

    Chairman Casey, Ranking Member Risch, distinguished members of the 
committee, thank you for inviting us to appear before you today to 
discuss the Iranian Government's continuing and worsening abuses 
against its own people.
    Almost 2 years after Iran's disputed Presidential election, Iranian 
authorities continue to harass, arbitrarily detain, torture, and 
imprison their citizens, as well as some of ours. Their targets include 
those who demand accountability from their government and who stand up 
for the rights of their fellow citizens; ethnic and religious 
minorities; journalists, bloggers, and students. Unfortunately, the 
situation has only further deteriorated in the first months of 2011 as 
compared with last year: protestors were killed in Tehran in February 
and in ethnically Arab areas in April; the reduction of prison 
sentences for seven Baha'i leaders from 20 years to 10 was reversed; 
additional sentences were levied on those already in prison merely for 
sending letters to family members; political prisoners are held in 
deplorable conditions with convicted murderers in former stockyards; 
those released from prison are forced to pay exorbitant bail sums; a 
Jewish woman and her Armenian-Christian husband were reportedly 
executed based on undisclosed charges; mass executions of mainly ethnic 
minority prisoners have been carried out without their families' 
knowledge; Iran has executed at least 135 people this year, more than 
any other country in the world except China; restrictions on speech 
have intensified; journalists and bloggers continue to be targeted by 
the regime for daring to write the truth; teachers and other workers 
are harassed and incarcerated when they seek freedom of association and 
payment of wages owed; trade union leaders remain imprisoned on 
questionable charges; politically active students have been banned from 
universities; and entire university faculties deemed un-Islamic have 
been forced to close their doors.
    Particularly troubling is the deepening persecution of religious 
minorities. On May 1, the Revolutionary Court in the northern city of 
Bandar Anzali tried 11 members of the Church of Iran, including Pastor 
Abdolreza Ali-Haghnejad and Zainab Bahremend, the 62-year-old 
grandmother of two other defendants, on charges of ``acting against 
national security.'' On September 22, 2010, Christian pastor Youcef 
Nadarkhani was given a death sentence for apostasy although, according 
to human rights groups, this sentence is against Iranian law. Another 
pastor could be sentenced to death later this year. In March, over 200 
Gonabadi Sufis were summoned to courts around the country based on 
allegations that they were insulting Iranian authorities. In April, 
eight other Sufis were rearrested on charges of disrupting public 
order--charges for which they had been punished with flogging and 
imprisonment.
    Iran's leaders continue to signal to their citizens that criticism 
will not be tolerated, while selectively applauding protestors in other 
countries in the region. As the country's economic situation 
deteriorates, workers are arrested when they protest for back wages, 
only to have authorities deny that strikes are taking place. At the 
same time the Iranian Government was claiming influence in shaping 
popular unrest in the Arab world last month, its security forces 
arrested over 200 of its own people and three protestors died at the 
hands of authorities. While it decries crackdowns against protesters in 
Bahrain, it defends and assists the Syrian Government's repression of 
protesters in Syria. Though Iranian leaders continue trying to portray 
regional events as inspired by the 1979 Islamic revolution, we are 
confident that the people of the Arab world will recognize those 
statements for the opportunistic falsehoods they are.
    As Iran's leaders have increased their repressive tactics, we have 
increased the scope of our efforts aimed at challenging the Iranian 
Government's deplorable human rights violations. President Obama and 
Secretary Clinton continue to speak out on behalf of the hundreds of 
victims in Iran who suffer at the hands of their government. Other 
world leaders have done the same. We have designated 10 Iranian 
officials for serious human rights abuses in accordance with the 
Comprehensive Iran Sanctions Accountability and Divestment Act and, as 
the act requires, we are actively seeking more information on possible 
targets.
    Following these designations, we engaged our European partners on 
ways to strengthen our collective voice, express solidarity with 
victims of torture, persecution, and arbitrary detention, and amplify 
the effect of our asset freezes and travel bans against Iranian 
officials. We welcomed the European Union's April 11 decision to 
sanction 32 Iranian officials, and have begun working with other 
partners to explore similar actions. We immediately imposed travel bans 
on the additional individuals not designated by the United States. 
While the U.S. and EU human rights sanctions regimes have different 
evidentiary standards, we are working closely together to share 
information on possible targets.
    We continue to urge more nations to join our call to shine a 
spotlight on Iran's gross violations of human rights in bilateral and 
multilateral settings. We successfully kept Iran off of the United 
Nations Human Rights Council (HRC) and helped win passage of a 
Canadian-led resolution condemning Iran's human rights abuses by the 
largest margin in 8 years. At the March session of the United Nations 
Human Rights Council, we led a successful effort to establish a Special 
Rapporteur on Iran--the first country-specific human rights rapporteur 
created since the Council came into being. This historic action sent an 
unmistakable signal to Iran's leaders that the world will bear witness 
to their systematic abuse of their own citizens' human rights. More 
importantly, the Special Rapporteur will serve as a critical voice for 
those Iranians being persecuted for their political, religious, and 
ethnic affiliations. We have also urged other countries to press Iran 
on its abuses in their bilateral diplomacy.
    Our efforts to address Iran's human rights abuses have been 
consistent and sustained. We often work behind the scenes in order to 
increase our effectiveness. We also continue to work quietly with civil 
society organizations in Iran to give them the tools they need to 
expand political space and hold their government accountable. Just as 
we do throughout the region, we provide training and tools to civil 
society activists to foster freedom of expression and the free flow of 
information on the Internet and via other communication technologies.
    We believe that Internet Freedom is essential to 21st century 
democracy promotion. Our Internet freedom programming, which is a 
priority for Secretary Clinton, is aimed at making sure the voices for 
peaceful democratic reform--in Iran and around the region--can be 
heard. We have spent $22 million on Internet freedom programming to 
date, and have notified Congress of our intent to spend $28 million 
more this spring. Countering Iran's increasingly active Internet 
surveillance and censorship efforts requires a diverse portfolio of 
tools and training. State Department grants will support more advanced 
countercensorship technologies, including circumvention tools in Farsi, 
secure mobile communications, and technologies to enable activists to 
post their own content online and protect against cyber attacks. We 
also have trained 5,000 activists worldwide--including Iranians--in 
cyber self-defense. And we plan to expand these efforts to teach 
democratic activists, journalists, bloggers, human rights defenders and 
others how to protect their online privacy and their data--so that they 
in turn can train others.
    One of our grantees has just developed a mobile panic button that 
works on the kind of inexpensive cell phones used in much of the world. 
Pushing the button alerts others that an activist has been assaulted or 
arrested--a sad necessity in an era when official abductions and 
disappearances are all too common. Activists around the world have told 
us that when police come to break up prodemocracy protests, they often 
grab demonstrators' mobile phones in order to track down their 
contacts. Within a few months, we also expect to have software that 
will wipe the contact lists from mobile phones with the push of a 
button.
    Countering Iran's increasingly active Internet surveillance and 
censorship efforts requires a diverse portfolio of tools and training. 
We are finalizing new global grants for projects that will support 
digital safety and capacity-building training, countercensorship 
technology, virtual communication, and peer-to-peer technologies. No 
single tool will overcome the Iranian Government's repressive Internet 
efforts, and that is why we have invested in incubating a diverse 
portfolio of technologies and digital safety training. This way, even 
if one particular tool is blocked, other tools will still be available. 
Likewise, we work to prevent the Iranian Government from acquiring 
sensitive technology to repress its citizens.
    Despite growing international consensus and a resounding 
condemnation of the Iranian Government's actions, the regime continues 
to turn a deaf ear to the aspirations of its own citizens. But there is 
hope. Hundreds of brave Iranian citizens continue to engage in the most 
basic of human rights work, documenting and reporting on abuses, with 
the hope that one day Iranian Government officials will be held 
accountable for crimes they have committed against their fellow 
citizens. Along with our international partners, we will continue to 
draw attention to these and other abuses and call on the leaders of the 
Islamic Republic of Iran to respect the universal rights enshrined in 
Iran's constitution and enumerated in the International Covenant on 
Civil and Political Rights, to which Iran is a signatory.

    Senator Casey. Thank you very much.
    Mr. Dibble.

  STATEMENT OF PHILO L. DIBBLE, DEPUTY ASSISTANT SECRETARY OF 
     STATE FOR NEAR EASTERN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Dibble. Thank you, Mr. Chairman. And I'd like to add my 
thanks, to Assistant Secretary Posner, for allowing us to 
testify this morning.
    As Assistant Secretary Posner has noted, the Iranian 
Government's repression of its citizens has intensified in 
recent months. But, as Iran's leaders have increased their 
repression, we have intensified our diplomatic efforts to call 
attention to those abuses and to press the Iranian Government 
to end them.
    President Obama and Secretary Clinton have spoken out more 
than a dozen times, this year alone, on behalf of the hundreds 
of Iranians whom you have correctly identified as having 
suffered at the hands of their government. At our urging and on 
their own initiative other world leaders have done the same.
    Secretary Clinton opened the March session of the Human 
Rights Council of the U.N. in Geneva. And her remarks helped us 
galvanize the cross-regional support we needed to create the 
Special Rapporteur on Human Rights in Iran. This is the first 
such action by the Human Rights Council under its new mandate. 
And that historic action sent an unmistakable signal to Iran's 
leaders that the international community will not ignore their 
systematic abuse of their citizens' human rights. But, more 
importantly, the Special Rapporteur will serve as an essential 
voice for those Iranians being persecuted in Iran for their 
political, religious, and ethnic affiliations.
    The second stream of actions comes under the Comprehensive 
Iran Sanctions Accountability and Divestment Act, under which 
we designated and sanctioned, as you noted, 10 Iranian 
officials for serious abuse of human rights. We continue to 
investigate others for designation under the act, as 
information becomes available and as events unfold.
    After that first set of designations under CISADA, I joined 
my counterpart in the State Department's Bureau of Democracy, 
Human Rights, and Labor, leading a group of experts from our 
two Bureaus, the State Department's Legal Advisor's Office, and 
the Treasury's Office of Foreign Assets Control to Europe, and 
to the European Union headquarters in Brussels.
    We discussed, with our counterparts there, ways to 
strengthen cooperation in combating the repression of human 
rights in Iran, including by speaking out together; by 
expressing solidarity with victims of torture, persecution, and 
arbitrary detention; and supporting one another's assets 
freezes and travel bans against Iranian officials. Partly a 
result of that engagement, the European Union, on April 11, 
sanctioned, as you noted, again, 32 Iranian officials for human 
rights abuses. We followed that action with our own travel ban 
on the officials the European Union has sanctioned. We are now 
considering how to expand the scope of our own human rights-
related visa bans. And we have also begun working with other 
international partners to explore similar actions they might be 
able to undertake.
    What I'm trying to underscore here is that we have a very 
fruitful and productive interaction with our European partners 
and beyond Europe on this question.
    We will, of course, continue to work closely with the EU 
and other like-minded partners to ensure that the cause of 
human rights remains at the forefront of policies, with respect 
to Iran.
    We are also, as Assistant Secretary Posner noted, again, 
looking for ways we can help Iranians more effectively act and 
speak on their own behalf, whether on the Internet, in 
journalism, or in the arts. As we do throughout the region, the 
State Department and USAID provide members of Iran's civil 
society with capacity-building training and new media tools to 
help them hold their government accountable and to strengthen 
their call for greater freedoms, transparency, and the rule of 
law.
    Despite growing international consensus and a resounding 
condemnation of their actions, the Iranian authorities continue 
to try to ignore the aspirations of their own citizens. But, we 
think there is hope. Hundreds of Iranians continue to engage in 
the most basic human rights work, holding their government 
accountable for acts of violence against its own citizens and 
for its stubborn unwillingness to permit the exercise of 
universally admitted human rights, including those enshrined in 
Iran's Constitution.
    The efforts of this administration on the issue of human 
rights in Iran involve several different agencies and 
departments. Along with my counterpart in the Bureau of 
Democracy, Human Rights, and Labor, I cochair an interagency 
working group that directs and coordinates U.S. Government 
action on Iran human rights issues. And those include 
initiatives regarding Internet freedom, implementation of human 
rights sanctions, engaging with like-minded partners, and 
working through multilateral institutions. As cochair of this 
group, I look forward to continuing our dialogue with the 
Congress on the best means to effectively deal with these 
issues.
    I cannot conclude a discussion of human rights without 
expressing our deep and continuing concern for the safety and 
well-being of all American citizens currently detained in Iran. 
In particular, we urge the Iranian Government to promptly 
release Shane Bauer and Josh Fattal so that they may return to 
their families. We note that, this morning, the trial that was 
scheduled to resume today did not resume. We're not quite sure 
what that means, but we hope it is a positive omen.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you very much. And I appreciate both 
of your testimonies, as well as your expression of solidarity 
that you just outlined.
    I want to make sure that we properly identify the pictures 
that were put up after my opening statement.
    The first picture on the audience's left and my right, is 
the gentleman I spoke about before, Navid Khanjani. Again, he's 
a 23-year-old student activist and defender of the rights of 
the Baha'i community in Iran.
    Next to him, closer, on my right, on your left, is the 
first individual I spoke of, Nasrin Sotoudeh, who is a lawyer 
and women's rights activist currently serving an 11-year 
sentence for her work defending juveniles and women in Iran. 
She's, of course, being held in Evin Prison, as I mentioned 
before.
    And then, finally, on my left, your right, is the third 
individual I mentioned, Mandieh Golroo, a 25-year-old women's 
rights activist who was imprisoned, along with her husband, in 
November 2009, after security forces raided their home.
    So, that's just a very limited spotlight on real people 
suffering the most brutal kind of repression that any of us 
could imagine. And that's one of the main reasons we're here 
this morning: those individuals, who have given, in some cases, 
some people in the streets gave their lives, but also those who 
have been imprisoned and have given up their rights, have been 
forced to do things we can't even imagine in this country.
    So, let me get to the questions for our panelists.
    You both highlighted some of the actions the administration 
has taken in response to the Iranian regime's human rights 
violations. And I'm reading from the prepared statement that, 
as you said, is a fuller statement of your testimony. You 
assert here that the administration's efforts to address 
Iranian human rights abuses have been both consistent and 
sustained, that the administration has provided training and 
tools, and has trained 5,000 activists, and you also mention 
the help on technology. So, there is a lot happening.
    But, here is one of the concerns that I have, and I think 
this is shared by a lot of people. We need to know who, in the 
U.S. Government, is taking the lead on this. I know the State 
Department plays a role, and I know the National Security 
Council plays a role, but who is the lead on this? Because like 
anything else in life, unless there is one person or one office 
charged with the overall responsibility, I think there will be 
some concerns that will continue.
    Mr. Posner. Thank you, Senator.
    There are two different ways in which the administration is 
approaching particularly important sensitive issues. One is to 
appoint special envoys or experts. And the other is to make it 
part of the everyday business of the Department and the 
government.
    And I don't know that I--you know, maybe some political 
scientists one day will evaluate which of those works well. 
We've opted for the second, here. And I would say, from my 
perspective, obviously this is an area where both Deputy 
Assistant Secretary Dibble and I are both very deeply involved. 
But, the main messengers here are the President and the 
Secretary of State. There is no issue, in my portfolio on human 
rights, where the President and the Secretary of State have 
been more outspoken more often. And I want to keep it that way, 
frankly. I want there to be a sense--we talk about a whole-of-
government approach--I think if we send a signal that the most 
senior officials of our government are paying attention, as 
they are, I think that's actually the most powerful message we 
can send.
    So, from my perspective there are many, many fronts around 
the world where I'm trying to get more attention from senior 
leaders. This is not a place where I have a problem doing that.
    There is support throughout the Department. We work very 
closely with NEA, with the Middle East Bureau. And we work very 
closely with the White House. And I think we are all in 
alignment here. This is a priority for the United States. Human 
rights is a central part of our policy. We recognize the 
deplorable conditions in Iran. We know we need to keep the 
pressure up and even to extend it. And I think, as a practical 
bureaucratic matter, we're working, actually, very well 
together.
    Senator Casey. Well, I'd urge you to keep that up and to 
amplify it, because repetition is very, very important here in 
Washington, and, I think, around the world. And, if anything, 
we need to see more repetition, more emphasis.
    I know that, on March 24, the U.N. Human Rights Council 
decided to take action against Iran, through the establishment 
of, as you and I both highlighted, the Special Rapporteur to 
investigate and report on human rights abuses in the country. 
The resolution was the first new country-specific mandate for 
monitoring human rights since the Council was established, in 
2006.
    How will the establishment of this Rapporteur in Iran help 
pressure the regime to abide by its international obligations 
to uphold the Universal Declaration of Human Rights?
    Mr. Posner. As I said in my opening comment, the intensity 
of the Iranian Government's opposition to the establishment 
already sends a signal that this is an important undertaking.
    It's important in three ways.
    One, the Rapporteur will be seized, throughout the year, 
with gathering comprehensive information, shining a spotlight, 
making that information available, and leading the debate in 
the United Nations about what is going on and what should be 
done about Iran.
    Second, that person will be the focal point for activists, 
both inside and outside of the country--outside of Iran--who 
are always eager to tell their stories and to have an official 
of the U.N. listen. So, that'll be the point-person, within the 
U.N. charged with gathering the information, dealing with the 
activists, and trying to address day-to-day concerns.
    And I think the third piece, which is critically important, 
is that it will force every government, not just the United 
States or Western Europe, but every government that's part of 
the Human Rights Council and part of the U.N. system, to 
reflect on the fact that this is now an obligation that's been 
undertaken by the U.N., as an institution. So, it allows us to 
go in, in a different set of conversations, to say, ``This is 
not the United States saying it, it's not Western Europe saying 
it, this is a United Nations expert who's come to these 
conclusions.'' I think it opens the door for a range of other 
conversations with other governments.
    Mr. Dibble. Mr. Chairman, if I could add----
    Senator Casey. Sure.
    Mr. Dibble [continuing]. One comment to that. I agree with 
everything Mr. Posner said, of course. But, I would point to 
the effort that was made to establish the Special Rapporteur 
and what that means, in terms of international support. We were 
able not only to get the votes of the European group, which we 
expected, having worked on them very heavily, but also votes 
from leading members of the nonaligned movement that Iran was 
counting on to support their position. And the signal to Iran 
of those votes going in our direction or in direction of 
supporting the Special Rapporteur, I think was a very, very 
strong one and that we should not undervalue.
    Thank you.
    Senator Casey. Tell us more about how this individual will 
work. It is a significant achievement that this action was 
taken. But, tell us more about the how and the when. When will 
that person be operational in terms of what they'll be able to 
do on the ground? Can they get on the ground in Iran, itself? 
If we're saying that this person is the individual that's going 
to help pressure the regime to abide by its international 
obligations, what kind of tools and support will this person 
have, and how will that authority be exercised?
    Mr. Posner. The person--the new Rapporteur will be selected 
at the June session of the Human Rights Council, next time they 
meet. They will undoubtedly seek permission to visit Iran. It 
won't shock me if the Government of Iran is not cooperative. 
And we're under no illusions, here. The government's going to 
be highly resistant to this exercise, from start to finish. 
But, that doesn't keep the Rapporteur from meeting with Iranian 
dissidents, democracy activists out of the country, to 
communicating in the ways that we now can communicate within--
across borders, and getting information from other governments, 
including our own.
    We will do everything we can to support this effort. I'm 
sure other governments will, as well as the NGOs who are so 
active in this field. So, I think there will be no problem 
getting the information. The information exists, as we all 
know. The next question is, How do you use this Rapporteur to 
ramp up the pressure, as you say, to make it clear that this 
represents an escalation of international diplomatic attention, 
to really put pressure on the regime?
    Senator Casey. I want to move to sanctions. But, I'm a 
little bit over time. I know that Senator Udall has joined us.
    Senator Udall, do you want to use this time for your 
questions?
    Senator Udall. Sure. And I could actually--thank you, 
Senator Casey--actually follow up on a couple of things that 
you were inquiring on.
    Have you seen any evidence at all that the Iranian regime, 
or anybody in Iran, is doing anything differently as a result 
of the Special Representative?
    Mr. Posner. I would say no. I mean, the Special Rapporteur 
was just designated. I mean, the position was just----
    Senator Udall. Right, right.
    Mr. Posner [continuing]. Created, and nobody's yet in that 
position. I--there's certainly----
    Senator Udall. But, all the development leading up to it--
the letters that have been written, the action by the U.N., all 
of that--you haven't seen anything different?
    Mr. Posner. No. What is interesting, though, is, again, the 
extent to which the government is hypersensitive about the U.N. 
getting involved, here. They devoted huge resources, diplomatic 
resources, across the world to try to defeat this. And we've 
been at this, in a way, for a couple of years. But, it's really 
extraordinary for the government to put so much of its 
diplomatic capital behind defeating it. So, that, to me, says 
there's a sensitivity or a vulnerably to this kind of 
multilateral action that is much greater than just the United 
States or U.K. or others criticizing them.
    But, I can't tell you that there has been a great 
improvement in human rights in Iran. We just don't see that 
right now.
    Senator Udall. Yes. Would you expect to see changes in the 
future? I mean, I think one of you said something, that they're 
pretty entrenched and they're going to fight this. What kind of 
positive approaches or outcomes would you expect to occur as a 
result of this? It's obviously, as you talked about, a very 
effective tool to pull all the human rights folks around the 
world, and the people that--where there are violations--and 
have a focal point. But, what do you expect on that front?
    Mr. Posner. You know, I guess what I would say--I'm a 
chronic optimist. I've been in the human rights world for a 
long time, and I----
    Senator Udall. Even working in the human rights world, 
you're a chronic optimist.
    Mr. Posner. Yes. Because I----
    Senator Udall. Yes.
    Mr. Posner [continuing]. You can see that things do change. 
And they change because people hold their nerve and because, 
ultimately, governments, like the Iranian Government, that try 
to suppress their people, are fighting a losing battle. It's a 
young population, a population that sees what's going on in the 
rest of the world and in the region, and increasingly impatient 
with the kind of autocratic policies that this government 
employs.
    So, I don't--I can't tell--I can't give you a timeline. I 
can't say, ``In 6 months, X is going to happen.''
    Senator Udall. Right.
    Mr. Posner. But, I think all of these efforts, 
collectively--our efforts, the multilateral efforts--empower 
and strengthen democracy human rights activists. And then you 
sort of wait. All of the sudden something happens and there's a 
moment. And that moment represents the beginning of real 
change. We're not there yet, but I think, if we hold our nerve 
and we maintain our principles and our commitment to universal 
human rights and democracy, in the longrun we're going to 
prevail.
    Mr. Dibble. Senator, if I could add----
    Senator Udall. Please----
    Mr. Dibble [continuing]. A couple of points.
    Senator Udall [continuing]. Please do, Mr. Dibble.
    Mr. Dibble. I, on the other hand, am a chronic pessimist. 
But, even I will agree that, having now established this new 
tool, in the form of the Special Rapporteur, we have another 
mechanism which will force the Iranian Government to talk to 
the international community about these questions. We're not 
the--the Special Rapporteur is the beginning of yet another 
process that we are putting underway to not just offer 
encouragement to human rights and civil society activists 
within Iran, but to force the Iranian Government to account for 
itself to the international community. And we have that in the 
U.N.'s third committee in the General Assembly, and now in 
this, as well. So, at a minimum, we will have that. And, you 
know, if things work properly, then we may have the result that 
Mike Posner has described.
    Senator Udall. Yes, and Senator Casey may have covered this 
earlier, but you talked about the huge effort that Iran put out 
there around the world to defeat this from coming to fruition. 
Why was it that we were able to get it done? What happened this 
time that didn't happen in the past? What lessons are we to 
learn from this?
    Mr. Posner. I think there are three things that have 
changed. One is that our presence in the Human Rights Council 
since 2009 has begun to change what is a very terrible--a poor 
environment. The Human Rights Council is, in many respects, not 
a healthy institution. It's been very politicized and very 
weak. But, we've begun to push on country-specific situations. 
This is one; Cote d'Ivoire is another; Syria, a couple of weeks 
ago; and Libya. And so, there's a sense that the institution 
itself is more open to change.
    Second is the Arab Spring. There's no question that the 
world is changing and the dynamics of the global diplomatic 
community is changing with it.
    And then, the third thing is that the events on the ground 
are so grim that I think people recognize this was long 
overdue.
    Senator Udall. Mr. Dibble, do you----
    Mr. Dibble. Absolutely. And I would add that, watching the 
Arab Spring unfold and watching the Iranian Government's 
reaction to it, its efforts to, one, claim credit for it, but 
then, at home, of acting in ways that were entirely at odds 
with that position, certainly we can disclaim, in every forum.
    Senator Udall. Thank you.
    Senator Casey, thank you very much. I really appreciate it.
    Senator Casey. Senator Udall, thank you very much.
    We are joined by Senator Risch, the ranking member of the 
subcommittee.
    And next we'll go to Senator Shaheen.
    Senator Shaheen. Thank you very much.
    Thank you all for being here. And I apologize for missing 
the discussion, to this point. So, hopefully I won't repeat too 
much of what's already been said.
    I know that Senator Udall was talking about the reaction, 
internally, to the Arab Spring. And I wonder if--I would like 
to go into that a little more, in terms of to what extent that 
might be influencing the internal dynamics between Ahmadinejad 
and the supreme religious leader. Do we think that that has 
contributed to what appears to be a rift there? And are there 
ways in which we should be responding to that to--in a way that 
might be helpful toward moving Iran?
    Mr. Dibble. With respect to the connection between the Arab 
Spring and the current tensions between the Supreme Leader and 
the President, it's very hard to see a connection that's any 
kind of direct connection, because tension between the 
institutions of Government in Iran have been present for some 
time. I think we don't quite understand what the basis for the 
current disagreements might be. We obviously notice--we notice 
them. We observe them closely, but it seems to have as much to 
do with power as anything else.
    I think none of the current institutions of Government in 
Iran would be particularly advantaged by the unfolding of an 
Arab Spring-like event in Iran right now. It would be to 
everybody's disadvantage who is currently in government. So, 
unfortunately, I think that the repression that we're seeing in 
Iran is repression that is undertaken by all the members of all 
branches of this government.
    Senator Shaheen. But, do those internal divisions provide 
more of an opening now for elements from the Green Movement or 
others who might want to look at ways in which they can affect 
the government's reaction? Or are you saying that there's 
just--that the repression has just shut down everything?
    Mr. Dibble. It hasn't shut down everything. We're seeing 
that civil society remains very active. The Green Movement has, 
in its own way, echoed the activities of the Arab Spring, with 
demonstrations that it called for in January and March. Now, 
none of those threaten the regime, but they are clear evidence 
that the Green Movement and other opposition groups, as well as 
civil society itself, remain active and vital in Iran. Whether 
they're a threat or not is something for, I think, a classified 
briefing, perhaps. But, I think we can certainly say that 
they're there, they're active, and they take inspiration where 
they can find it.
    Senator Shaheen. Mr. Posner, are there lessons that we've 
learned, based on what's happened in Egypt and Tunisia, and now 
what's happening in Libya and Syria, that can help guide our 
policies with regards to Iran?
    Mr. Posner. Yes, I think there are. I mean, one of the 
lessons is that the desire for democratic participation, 
political participation, is very deep-seated. It's particularly 
deep-seated among young people, who are increasingly better 
educated and look around them and they say, ``Why are we living 
like this?'' The governments that are autocratic and brittle 
tend not to know how to deal with these things, and that, 
because of the Internet and because of television and because 
it's so easy to travel, people are making comparisons.
    So, I think, you know, for a government like the Iranian 
Government, the lesson they're learning is, ``Oh, my God,'' you 
know, ``everybody here is looking around the neighborhood and 
saying, `Why not us?' '' And I think that does provide us an 
opportunity. Again, I don't want to be Pollyanna and say, ``In 
3 months or 6 months, there's going to be a dramatic change.'' 
But, I have no doubt that there are millions and millions of 
Iranians--young Iranians that are looking at Egypt, looking at 
Tunisia, and saying, you know, ``We also aspire to freedom. We 
want a better life. We want a decent job. We want a stake in 
our society and our political future.'' And those are the 
people that I think are going to be in the vanguard of change 
when it occurs.
    Senator Shaheen. And can you talk more about what we can do 
to help exploit those opportunities?
    Mr. Posner. Well, I think one of the things is----
    Senator Shaheen. ``Exploit'' may not be the right word.
    Mr. Posner. Yes, well, I think----
    Senator Shaheen. Encourage?
    Mr. Posner [continuing]. One things that we're doing here 
is to be public, in our own government, about expressing our 
concern, our solidarity with people who are on the receiving 
end of these terrible abuses, so they don't feel alone.
    Second, I think there are ways, through the U.N.--and we've 
been talking about that--that we can, you know, build more 
momentum, globally, diplomatically. And then, I think some of 
the technical support and training and support for Internet 
expansion and so forth, all of that range of things that 
amplify the voices, that provide a safe space for people within 
Iran to communicate with each other, that's vital. People need 
the ability to talk with one another and compare notes and know 
what's going on. Inevitably, that will accelerate the pace of 
change.
    Senator Shaheen. And to what extent do we think they will 
be responsive to the international community in some of these 
areas?
    Mr. Posner. Is the ``they'' the government or the people?
    Senator Shaheen. You're right. I'm sorry. Yes, the 
government.
    Mr. Posner. You know, this is a government that's dug in. 
And certainly it's not on a democratic trajectory. And so, you 
know, they view everything I just said as a threat. But, it is 
the reality in which they now live. And again, they can't 
operate in isolation. They're part of the global economy; 
they're part of a global political system, where, increasingly, 
they're isolated. And that, undoubtedly, provides us more 
opportunity. But, they're not going to--this is not going to be 
an easy sell. We're not going to find----
    Senator Shaheen. Sure.
    Mr. Posner [continuing]. Willing partners who want to come 
and talk about how to democratize.
    Senator Shaheen. Thank you, Mr. Chairman.
    Senator Casey. Thanks very much.
    Before I get to the issue of sanctions, I want to ask you a 
three-part question.
    The first one would be to give us a report, in a sense--and 
I know it would be just by way of a summary--but a report on 
how you think the sanctions are impacting the regime's 
behavior, if you could provide some sense of that.
    And then, second, I wanted to ask you a followup question 
about areas that we can pursue, statutory change or otherwise, 
that would enhance and strengthen already existing or underway 
sanctions.
    And I have a third question, as well.
    But first, from either or from both of our witnesses, it 
would be helpful to have a sense of how you think the sanctions 
are impacting the regime.
    Mr. Dibble. I will take the liberty of talking about 
sanctions broadly; not just the human rights sanctions, but 
also the economic sanctions that have been put in place, 
internationally as well as unilaterally, by the United States 
and other governments.
    We haven't yet seen a change in Iran's strategic calculus 
as a result of the sanctions. Nevertheless, evidence that we 
are getting suggests that the Iranian Government has been 
forced to look for alternative ways both to procure, to sell, 
to engage in normal commerce in sensitive areas, that it did 
not require before. So, we do see the economic sanctions as 
having an impact; not the decisive impact that we're looking 
for, yet, but we are looking at ways to intensify the pressure.
    With respect to human rights, as I think we've detailed, 
this is not an easy sell. The government will resist, from the 
beginning. None of the governments that were subject to the 
Arab Spring were happy about what happened in their countries; 
they resisted. The Iranians have had practice; they will resist 
even harder.
    I think we're always looking for ways in which we can 
intensify the pressure, specifically on the human rights field. 
We do have a very strong international sense of cooperation and 
solidarity on this question. And we should exploit it wherever 
we can.
    I think one of the new phenomena that we need to look at 
more carefully is the interest among the nonaligned, especially 
leading countries in the nonaligned--for example, Brazil--in 
joining with us on the question of human rights in Iran. They 
did so on the question of the Special Rapporteur. I think they 
would be sympathetic. And we will be looking at how to work 
with them and with others to advance this issue even further.
    I hesitate to make any recommendations with regard to 
legislation or statutes. We think we have the authorities we 
require to mount a very aggressive and productive human rights 
campaign on Iran. I think we've outlined what we've been able 
to do and what we'll continue to do. But, we'll be happy to 
continue our conversation with the Senate and with the House to 
see what more can be accomplished. We don't think we have the 
final word, by any means.
    Senator Casey. Mr. Posner, anything you want to add to 
that?
    Mr. Posner. No, thank you.
    Senator Casey. I just want to highlight one letter. And I 
know that our government has already designated 10 individuals, 
and the Europeans have a list of some 32. But, I wanted to just 
highlight, for the record, a letter dated April 20, that 
Senator Menendez and Senator Cardin and I sent to the State 
Department; in particular, with a list of 12 individuals in 
Iran, in both the military and law enforcement area of their 
government. And I just want to provide a friendly reminder, 
that that letter is still in need of a response. I'm not 
quibbling about the timing. But, I think that we have to have a 
response to that, because a concern that I have is that there 
are things we can do, in addition to what's already been done. 
And I want to see those move forward.
    Our ranking member, Senator Risch, has some questions.
    Senator Risch. Well, thank you, Mr. Chairman.
    The question I have is on sanctions. And I'm just mystified 
why the administration won't enforce the sanctions. I mean, 
there's all kinds of cases out there, where entities could be 
sanctioned or action could be taken against them for violating 
the sanctions. And we can't seem to get an answer to that. Can 
you enlighten me at all?
    Mr. Dibble. I hope so. I think we are enforcing the law. We 
have imposed sanctions. Some of the cases, that I'm sure you 
have in mind, are very difficult ones, from the perspective of 
the other issues that they bring in their train. And the 
decisions to sanction or to waive or to defer are way above my 
paygrade, at this point, because of the very nature of the 
relationships that are involved in that.
    We have however, using CISADA, using ILSA, before that, 
basically dried up petroleum-sector investment by foreign 
companies in Iran. And, using the assurances that we have been 
able to provide, we have gotten major international oil 
companies out. So, in that sense, we have had an effective 
policy, based on ILSA and CISADA.
    Senator Risch. Well, Mr. Dibble, can you give me a 
specific--
I understand we've placed sanctions. I'm not quarreling with 
that. I think everybody here supported that. And I understand 
that, when you're enforcing sanctions, there's a spectrum, all 
the way from a very robust enforcement to a very benign--or 
what have you. I feel ours is almost nonexistent. Can you give 
me specific examples of actions that were taken against 
entities who continue to do business, be they banks or be they 
oil companies or refining companies--can you give me some 
specific examples of action that was taken against those 
entities for violating the sanctions that we've put in place?
    Mr. Dibble. The Treasury Department has designated any 
number of--apologies.
    The Treasury Department has designated any number of 
Iranian banks, and has taken to the road, if I can call it 
that, to warn international banks and banks in third countries 
about the penalties that they are looking at if they continue 
to do business with these designated banks. That has been an 
effective campaign.
    Senator Risch. Well, you say they've been warned, but what 
specific actions have been taken against banks, outside of 
Iran, who are doing business with banks in Iran, that we all 
know is an absolute, total violation of the sanctions that we 
have in place? Has any action been taken against any entity?
    Mr. Dibble. I can't give you specifics, but I'm happy to 
come back to you with more information.
    Senator Risch. Please do that.

    [The information referred to was not available at the time 
this hearing went to press.]

    Senator Risch. I'm not aware of any. And I think most of us 
would be aware of some. But nobody can seem to find any. So 
again, you know, I understand that there has to be discretion 
here, as far as whether it's a robust enforcement of the 
sanctions or a mild enforcement of the sanctions. But, it seems 
to me, unfortunately, the sanctions are nothing more than talk, 
which is aggravating, since at the time we put them in place, 
the Iranians told us, ``So, what? We're going to continue to do 
business as usual.'' And, to be honest with you, it looks like 
they are continuing to do business as usual.
    So, thank you very much.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Risch.
    Senator Shaheen.
    Senator Shaheen. I have no more questions.
    Senator Casey. I just have one final question. I know we're 
going to be moving to our second panel. The question is on Camp 
Ashraf. According to the U.N., 34 residents at Camp Ashraf in 
Iraq, near the Iranian border, were killed in early April. I'll 
ask one or both of you to speak to that issue. What is the 
U.S.'s position on that issue?
    Mr. Dibble. We were appalled by the attack on Camp Ashraf. 
We believe we had assurances, from the Iraqi Government, that 
they would treat the residents of Camp Ashraf in a manner that 
was humane. And they didn't. We have made our views very clear 
to the Iraqi Government. We have also, however, begun to 
develop, with them, some ideas on how to relocate the residents 
of Camp Ashraf somewhere where they can be more safe--more--
better protected and less in harm's way. We are also starting 
to talk to the leadership of the camp, and seeking their 
cooperation in that effort; the idea being, eventually, to 
relocate the residents to third countries through some sort of 
resettlement program. That's the long-term objective.
    Senator Casey. Well, I thank you both for your presence 
here today, and for your testimony.
    We'll have questions for the record, as well. And that 
record will be open for members of the committee.
    I think we'll move to our second panel.
    Thank you.
    [Pause.]
    Senator Casey. Well, thank you very much. We have our 
second panel. And we're grateful for our witnesses.
    Each of you, as you might have heard me say before, will 
have your full statements be made part of the record. If you 
can summarize, as best you can, your statement, that would be 
helpful.
    [Pause.]
    Senator Casey. Ms. Bakhtiar, if we can start with you. And 
I appreciate your being here with us, and for your testimony.

     STATEMENT OF RUDI BAKHTIAR, COMMUNICATIONS DIRECTOR, 
 INTERNATIONAL CAMPAIGN FOR HUMAN RIGHTS IN IRAN, NEW YORK, NY

    Ms. Bakhtiar. I'd like to thank you, Mr. Chairman, for 
providing this opportunity to speak to you on behalf of the 
International Campaign for Human Rights in Iran. It is an 
independent NGO dedicated to research and advocacy regarding 
the human rights situation in Iran. We'd like to share our main 
concerns and offer you some recommendations.
    Two years after the disputed Presidential election of 2009, 
the human rights situation in the Islamic Republic of Iran 
continues to deteriorate and is in a state of unprecedented 
crisis. Under the Presidency of Mahmoud Ahmadinejad, Iran has 
become one of the worst violators of human rights in the world, 
egregiously violating virtually every article of the 
International Covenant on Civil and Political Rights of which 
Iran is a state party, and also ignoring the human rights 
protections in Iran's own constitution.
    Since the start of 2011, Iran has been on an execution 
binge. In January alone, IRI officials executed 85 people, 
compared to 86 in all of 2005. That's the year President 
Ahmadinejad took power.
    In all of 2010, Iran executed at least 542 people, 242 of 
them officially announced and over 300 reportedly put to death 
in secret executions inside of Vakilabad Prison in Mashad.
    Reports of cruel and inhumane punishments, including 
stoning, limb amputations, and floggings, are also on the rise. 
The government falsely justifies these practices on the basis 
of Iran's religion and culture, while they are clearly part of 
a program to terrorize Iranian citizens.
    Human rights defenders, civil society activists, 
journalists, as well as minority, ethnic, and religious groups, 
all have been facing growing repression; the authorities 
continually silencing those who try to expose and criticize the 
government's violence or hold the government accountable.
    The Iranian judiciary has become deeply politicized under 
the influence of the state security establishment. The 
judiciary and security forces regularly use coerced 
confessions, obtained under torture or duress, to issue lengthy 
sentences on vaguely worded offences, including ``acts against 
national security'' and ``enmity against God.''
    Over the past 2 years, numerous detainees have risked their 
lives and come forward with personal accounts of rape, severe 
beatings, sleep deprivation, verbal threats, and other ill 
treatment by their interrogators. Right now, an estimated 500 
people remain arbitrarily detained for peaceful activities or 
for exercising free expression. Another 500 prisoners of 
conscience have been sentenced to lengthy prison terms 
following unjust trials. In addition, authorities in Iran are 
effectively criminalizing human-rights-based legal 
representation by prosecuting a number of lawyers who represent 
political detainees, including the one you mentioned, Nasrin 
Sotoudeh, and Mohammad Seifzadeh, sentenced, in 2010, to 11 
years and 9 years, respectively.
    Even the creation of an independent human rights 
organization has become a crime in Iran. Mohammad Kaboudvand 
was sentenced to 10 years in prison for starting the first 
human rights organization in Kurdistan. Family members and 
colleagues of Shirin Ebadi, Iran's 2003 Nobel Peace Prize 
Laureate, have been arrested, harassed, and intimidated in 
order to force them to disassociate themselves from Mrs. Ebadi, 
who has led the country's most effective human rights 
organization, the Center for Human Rights Defenders.
    Leading human rights advocate Emad Baghi, of the 
Association for Prisoner's Rights, who has shown how Iran's 
policy of executing juvenile delinquents is, in fact, not 
justified by shariah law, he is now serving 6 years in prison.
    The government continues to impose increasingly severe 
restrictions on freedom of expression, association, and 
assembly, including widespread censorship of newspapers and the 
Internet and imprisoning numerous Iranian journalists, 
including Bahman Ahmadi Amouee and Issa Saharkhiz.
    Religious and ethnic minorities continue to face 
discrimination, as well. In December 2010, Iranian courts 
sentenced Christian pastor Youcef Nadarkhani to death for 
``apostasy,'' an offense that has no basis in Iranian law.
    The broadscale discrimination against members of the Baha'i 
faith, that you mentioned, has included the sentencing of seven 
Baha'i leaders to 20 years in prison each on baseless espionage 
charges in August 2010, and denying Baha'is access to higher 
education. Sufism followers have also been routinely persecuted 
and prosecuted solely because of their beliefs. Furthermore, 
violent suppression of the ethnic Arab population in Khuzestan 
continues. Dozens of protesters were killed, and many more were 
injured, during demonstrations on April 15, 2011. Many have 
since been arrested.
    Now, despite unassailable evidence of widescale rights 
violations by the government, Iranian officials continue to 
misrepresent their human rights record, reject calls for 
reform, and block any attempts by the international human 
rights mechanisms to cooperatively address the crisis in Iran. 
In this connection, I wish to note the critical role of the 
administration for its leadership and support of the United 
Nations Human Rights Council resolution that established a 
Special Rapporteur on Iran. It's something the Iranian people 
deeply appreciate.
    Two years ago, millions of Iranians took to the streets, in 
an unprecedented fashion, demanding respect for fundamental 
freedoms, human rights, and democracy. Today, popular movements 
throughout the Middle East are making similar calls. Although 
Iranians are living under severe repression right now, there is 
no doubt their civil and human rights movement cannot be 
contained in the long term.
    We believe the United States policy toward Iran must give 
priority to the dire human rights situation there. In 
particular, we recommend the following actions.
    Access to information is of critical importance today. 
While the Iranian Government engages in broad censorship and 
implements severe restrictions on Internet access and broadcast 
media, the United States could help Iranian people to gain 
access to the Internet and satellite channels as a means to 
expand communications, access impartial news and information, 
and to challenge the government's narrative and expose truths.
    The U.S. policy should also focus on ending the illegal 
jamming of satellite channels by the Iranian Government. Also, 
I'd like to give you an example, here. The United States should 
lift sanctions on hardware technology--specific hardware 
technology that would allow ordinary Iranians to download 
Internet content wirelessly through their TV satellite dishes, 
and should also facilitate providing such wireless access.
    The administration and Congress should also continue to 
express clear moral support for the Iranian people, in 
responding to the unfolding human rights crisis there. The 
moral support should be articulated in a way that does not 
allow legitimate aspirations of the Iranians to be falsely 
portrayed by the government as foreign intervention. Upholding 
international legal commitments is not interfering in the 
internal affairs of another state.
    As noted above, the administration's diplomacy at the Human 
Rights Council, leading to a multilateral consensus on 
appointing a Special Rapporteur for Iran, is welcomed and 
should be strongly supported. However, this mechanism should be 
strengthened to result in tangible improvements.
    The United States should also target companies that sell 
surveillance technologies to the Iranian Government, which is 
empowering its repression. Several European companies are 
suspected of such business activities and should be denied 
access to American markets.
    And finally, the United States should continue to expand 
its targeted sanctions against government officials implicated 
in gross human rights violations. It should also encourage 
countries, such as Canada, Australia, New Zealand, and Japan to 
adopt similar travel bans and financial freezes. The U.S. 
Treasury should put financial institutions in countries, such 
as Thailand, Malaysia, Singapore, and the UAE on notice that 
any financial services to sanctioned individuals will result in 
their losing the ability to engage in financial transactions 
through United States institutions.
    Thank you all for your attention and concern. And thank you 
in advance for concrete steps that you can take to help the 
people of Iran realize their fundamental human rights.
    [The prepared statement of Ms. Bakhtiar follows:]

                  Prepared Statement of Rudi Bakhtiar

    I would like to thank the Chairman for providing this opportunity 
to speak to you on behalf of the International Campaign for Human 
Rights in Iran, an independent NGO dedicated to research and advocacy 
regarding the human rights situation in Iran. We want to share our main 
concerns and offer some recommendations.
    Two years after the disputed Presidential election of 2009, the 
human rights situation in the Islamic Republic of Iran continues to 
deteriorate and is in a state of unprecedented crisis.
    Under the Presidency of Mahmoud Ahmadinejad, Iran has become one of 
the world's worst violators of human rights, egregiously violating 
virtually every article of the International Covenant on Civil and 
Political Rights of which Iran is a state party, and ignoring the human 
rights protections in Iran's own Constitution.
    Since the start of 2011 Iran has been on an execution binge. In 
January 2011 alone, Iran executed 85 persons, compared to 86 in all of 
2005, the year President Ahmadinejad assumed power.
    In all of 2010, Iran executed at least 542 people, 242 officially 
announced and over 300 reportedly put to death in secret executions 
inside Vakilabad Prison in Mashad.
    Reports of cruel and inhumane punishments including stoning, limb 
amputations, and floggings are also on the rise. The government falsely 
justifies these practices on the basis of Iran's religion and culture, 
while they are clearly part of a program to terrorize the citizens.
     Human rights defenders, civil society activists, journalists, as 
well as, minority ethnic and religious groups, have been facing growing 
repression; the authorities silences those who try to expose and 
criticize its violence, or hold it accountable.
    The Iranian Judiciary has become deeply politicized under the 
influence of the state security establishment. The Judiciary and 
security forces regularly use coerced confessions obtained under 
torture or duress to issue lengthy sentences on vaguely worded offences 
including ``acts against national security,'' and ``enmity against 
God.''
    Over the past 2 years, numerous detainees have risked their lives 
and come forward with personal accounts of rape, severe beatings, sleep 
deprivation, verbal threats, and other ill treatment by interrogators.
    An estimated 500 persons remain arbitrarily detained for peaceful 
activities or the exercise of free expression. Another 500 prisoners of 
conscience have been sentenced to lengthy prison terms following unfair 
trails.
    Authorities in Iran are effectively criminalizing human rights 
based legal representation by prosecuting a number of lawyers who 
represent political detainees including Nasrin Sotoudeh and Mohammad 
Seifzadeh, sentenced in 2010 to 11 years and 9 years respectively.
    Even the creation of an independent human rights organization has 
become a crime in Iran. Mohammad Kaboudvand was sentenced to 10 years 
in prison for starting the first human rights organization in 
Kurdistan. Family members and colleagues of Shirin Ebadi, Iran's 2003 
Nobel Peace Laureate, have been arrested, harassed, and intimidated in 
order to force them to disassociate themselves from Ms. Ebadi, who led 
the country's most effective human rights organization, the Center for 
Human Rights Defenders.
    Leading human rights advocate Emad Baghi of the Association for 
Prisoner's Rights, who has shown how Iran's policy of executing 
juvenile offenders is not justified by Sharia law, is serving 6 years 
in prison.
    The government continues to impose increasingly severe restrictions 
on freedom of expression, association, and assembly, including 
widespread censorship of newspapers and the Internet, imprisoning 
numerous Iranian journalists including Bahman Ahmadi Amouee and Issa 
Saharkhiz.
    Religious and ethnic minorities continue to face discrimination. In 
December 2010, Iranian courts sentenced Christian pastor Youcef 
Nadarkhani to death for ``apostasy,'' an offense that has no basis in 
Iranian law.
    The broad scale discrimination against members of the Baha'i Faith 
has included the sentencing of seven Baha'i leaders to 20 years in 
prison each on baseless espionage charges in August 2010, and denying 
Baha'is access to higher education. Sufi followers have been routinely 
persecuted and prosecuted solely for their beliefs.
    Furthermore, violent suppression of the ethnic Arab population in 
Khuzestan, continues. Dozens of protesters were killed and many were 
injured during demonstrations on April 15 2011, and many have since 
been arrested.
    Despite unassailable evidence of wide-scale rights violations by 
the government, Iranian officials continue to misrepresent their human 
rights record, reject calls for reform, and block attempts by 
international human rights mechanisms to cooperatively address the 
crisis in Iran. In this connection I wish to note the critical role of 
the administration for its leadership and support of the United Nations 
Human Rights Council resolution that established a special rapporteur 
on Iran. It is something the Iranian people deeply appreciate.
    Two years ago, millions of Iranians took to the streets demanding 
respect for fundamental freedoms, human rights, and democracy. Today 
popular movements throughout the Middle East are making similar calls.
    Iranians are today living under severe repression, but there is no 
doubt their civil and human rights movement cannot be contained in the 
long term.
    We believe United States policy toward Iran must give priority to 
the dire human rights situation. In particular we recommend the 
following actions:

  <bullet> Access to information is of critical importance today. While 
        the Iranian Government engages in broad censorship and 
        implements severe restrictions on Internet access and broadcast 
        media, the United States could help Iranian people to gain 
        access to the Internet and satellite channels as a means to 
        expand communications, access impartial news and information 
        and to challenge the government's narrative and expose the 
        truth. For example, the United States should lift sanctions on 
        hardware technology that would allow ordinary Iranians to 
        download Internet content wirelessly through their television 
        satellite dishes and should facilitate providing such wireless 
        access. U.S. policy should also focus on ending the illegal 
        jamming of satellite channels by the Iranian Government.
  <bullet> The administration and Congress should express clear moral 
        support for the Iranian people in responding to the unfolding 
        human rights crisis. This moral support should be articulated 
        in a way that does not allow legitimate aspirations of Iranians 
        to be falsely portrayed by the government as foreign 
        intervention. Upholding international legal commitments is not 
        interfering in the internal affairs of another state.
  <bullet> As noted above, the administration's diplomacy at the Human 
        Rights Council, leading to a multilateral consensus on 
        appointing a special reporter for Iran is welcomed and should 
        be strongly supported. This special mechanism should be 
        strengthened to result in tangible improvements.
  <bullet> The U.S. Government should target companies that sell 
        surveillance technologies to the Iranian Government, empowering 
        its repression. Several European companies are suspected of 
        such business activity and should be denied access to American 
        markets.
  <bullet> The United States should continue to expand its targeted 
        sanctions against government officials implicated in gross 
        human rights violations. It should also encourage countries 
        such as Canada, Australia, New Zealand, and Japan to adopt 
        similar travel bans and financial freezes. The U.S. Treasury 
        should put financial institutions in countries such as 
        Thailand, Malaysia, Singapore, and the UAE on notice that any 
        financial services to sanctioned individual will result in 
        their losing the ability to engage in financial transactions 
        through U.S. institutions.

    Thank you for your attention and concern. And thank you in advance 
for concrete steps that you can take to help the people of Iran realize 
their fundamental human rights.

    Senator Casey. Thank you very much.
    Mr. Apostolou.

STATEMENT OF ANDREW APOSTOLOU, SENIOR PROGRAM MANAGER, FREEDOM 
                     HOUSE, WASHINGTON, DC

    Mr. Apostolou. Senator Casey, Senator Risch, members of 
your staff who have worked so hard in putting this together, 
thank you very much indeed for inviting me today. And also, 
thank you for putting me on a panel with Rudi Bakhtiar and 
Kambiz Hosseini. It's very flattering to be in such good 
company.
    I'd like to talk about three aspects of the human rights 
issue in Iran. The first is the regional, the second is the 
repressive policies of the regime, and the third is how we can 
practically help Iranians.
    In terms of the regional, the place where the Arab revolt 
meets Iran is in Syria. By sending tanks into his own cities, 
Bashar al-Assad has demonstrated that he is as much a reformer 
as Leonid Brezhnev was in 1968 when he sent tanks into 
Czechoslovakia. I think Shirin Ebadi has put it very well when 
she said that, ``If there is democracy in Syria, it's as if an 
arm of Iranian regime was cut off.'' The Syrian regime, let's 
remember, is not only an ally of the Iranian regime, it's also 
a partner in many of its crimes. So, let's take the Syria test 
seriously, because I think it tests just how committed we are 
to helping our friends in Iran.
    With regard to the regime's repressive policies, there are 
three main aspects here. The first is the isolation of the 
opposition leaders. Mr. Karroubi and Mr. Mousavi and their 
wives, who are, themselves, activists in their right, Fatemeh 
Karroubi and Zahra Rahnavard, have been in a form of 
incommunicado detention since mid-February. I'm sorry to say, I 
don't think we've said enough about this and made enough of a 
fuss. Let me remind you of the fuss that we did make in August 
1991, when Mikhail Gorbachev was detained, when Margaret 
Thatcher stood up in public and said ``we will hold you 
accountable for this person.'' We must do the same in Iran.
    The second repressive policy of the Iranian regime is, as 
Rudi Bakhtiar mentioned, the horrendous increase in executions. 
Iran doesn't just use the death penalty against people who are 
murderers or drug traffickers, as they claim--and even those 
people don't have proper trials or proper legal process before 
they face the death penalty--Iran uses the death penalty for 
matters of sexual orientation and matters of opinion. This is 
clearly an attempt to intimidate the population. What was 
encouraging was that the United States, the European 
Parliament, and the U.N. made statements on the large increase 
in executions. We saw a decrease in the reported number of 
executions. But, we fear--and Rudi has pointed this out, as 
have many others--that they're actually doing executions now in 
private.
    The third repressive measure being used--and you've 
highlighted it with these pictures--is to try and break 
political prisoners. Iran has implemented the most outrageous 
sentences on people who have done nothing more that Nasrin 
Sotoudeh, be a human rights activist and lawyer; or Navid 
Khanjani, be a human rights activist and a Baha'i; or Mahdieh 
Golroo, for being a human rights activist who stood up for 
Mansour Osanloo or the Alaei brothers. Another case I'd like to 
mention is Hossein Ronaghi-Maleki. He is currently serving a 
15-year sentence for helping people with Internet freedom.
    I'd also like to mention a very worrying development that 
occurred last week, which is, a number of prisoners, some of 
them political, were moved from Rajaei Shahr Prison, which is a 
pretty awful place, where Mansour Osanloo is currently held, to 
a place called Qarchak Varamin, a prison where the facilities 
are grossly inadequate to handle the number of women held 
there. The reports we have is that something like two or three 
times the number of prisoners are being held in that prison, 
relative to its capacity. And that's precisely the sort of 
thing that a U.N. Rapporteur or a U.S. Special Representative 
could demand answers about.
    So, how can we help people in Iran? Well, there are four 
ways.
    The first is doing what you've just done here, which is 
adopt prisoners. It worked with the Refuseniks. It will work 
with Iran.
    The second thing we can do is push human rights up the 
human rights agenda, in terms of U.S. policy. I have to say I 
was very pleased with President Obama's Nowruz address this 
year. He mentioned human rights defenders. He mentioned human 
rights. And it was a very welcome change from the message in 
2009.
    The third thing we can do is to sanction both the abusers 
and those who help those who do abuse. That can mean using 
existing legislation, having new legislation, or doing the sort 
of, frankly, guerrilla actions, if I can put it that way, that 
Stuart Levey did when he was at Treasury.
    Fourth, and finally, we can actually practically help 
activists in Iran. That means helping them document abuses and 
report on abuses, helping them to communicate and to organize.
    At Freedom House, we were helping people in Syria and Egypt 
for many years. And there were many years, frankly, where it 
looked pretty lean and fairly bleak. But, you never know when 
the opportunity will come. And I think we have to be ready, and 
we have to make certain the people of Iran are ready, for when 
their next opportunity of freedom emerges.
    Thank you.
    [The prepared statement of Mr. Apostolou follows:]

                 Prepared Statement of Andrew Apostolou

    Chairman Casey, Ranking Member Risch, members of the subcommittee, 
it is an honour to be invited to address you and to represent Freedom 
House. Please allow me to thank you and your staff for all your efforts 
to advance the cause of human rights and democracy in Iran. It is also 
a great pleasure to be here with Rudi Bakhtiar and Kambiz Hosseini. 
They are leaders in how we communicate the human rights issue, both to 
Iran and to the rest of the world.
    Freedom House is celebrating its 70th anniversary. We were founded 
on the eve of the United States entry into World War II by Eleanor 
Roosevelt and Wendell Wilkie to act as an ideological counterweight to 
the Nazi's antidemocratic ideology. The Nazi headquarters in Munich was 
known as the Braunes Haus, so Roosevelt and Wilkie founded Freedom 
House in response. The ruins of the Braunes Haus are now a memorial. 
Freedom House is actively promoting democracy and freedom around the 
world.
    The Second World War context of our foundation is relevant to our 
Iran work. The Iranian state despises liberal democracy, routinely 
violates human rights norms through its domestic repression, mocks and 
denies the Holocaust. Given the threat that the Iranian state poses to 
its own population and to the Middle East, we regard Iran as an 
institutional priority.
    In addition to Freedom House's well-known analyses on the state of 
freedom in the world and our advocacy for democracy, we support 
democratic activists in some of the world's most repressive societies, 
including Iran. I am very fortunate to work with highly talented and 
committed colleagues who have provided exemplary support to Iranian 
dissidents and democrats. This testimony represents their expertise and 
round the clock efforts to stand up for some of the Iranian regime's 
most isolated and repressed victims.
    Freedom House conducts projects to defend human rights in Iran. We 
make representations in favour of human rights in Iran to the U.S. 
Congress, to the United Nations, to the European Parliament, and to 
responsible U.S. allies.
    In this testimony, the focus will be how the regional context 
affects Iran, the key elements of Iranian regime repression, and how 
the United States and its allies can assist our Iranian friends.
                          the regional context
    The regional context has already had an important impact inside 
Iran. The Iranian regime chose in June 2009 to discard the facade of 
so-called Islamic democracy and engage in crude electoral theft. Until 
that point the Islamic Republic of Iran could claim some degree of 
controlled electoral legitimation for aspects of the state, a process 
that was comfortably more open than most of its Persian Gulf 
neighbours. As of June 2009, the Islamic Republic of Iran placed itself 
in the then well-populated ranks of electoral frauds and dictators. 
This was a reasonable choice at the time. The prospects for political 
change across the Middle East were bleak in the summer of 2009. The 
signal from the United States was of engagement with the powers that be 
as opposed to seeking to promote new political arrangements.
    The Iranian regime did not choose its political path wisely. The 
Arab uprisings against undemocratic regimes mean that the model of 
elections as rubber stamps for dictators is no longer in vogue. 
Similarly, the practice of ``resistance'' that Iran has supported is 
seen to have failed when compared to peaceful civic mobilization. The 
last 5 months of Arab activism have ousted two dictators, led to the 
fall of two governments, and forced others to make concessions. Not for 
the first time Middle Eastern dictatorships have been shown to be less 
stable than believed and to have rather less support than their 
apologists and lobbyists claimed.
    Three regional factors are currently relevant to Iran. First, Arab 
activists such as Wael Ghonim have said that they were inspired by the 
Iranian demonstrations of 2009.\1\ Other Arab activists have said they 
want to assist their Iranian comrades. That sense of solidarity and the 
inspiration of Arab successes have lifted the moral of Iranian 
activists.
---------------------------------------------------------------------------
    \1\ International Campaign for Human Rights in Iran, ``Egyptian 
Activist's Message to Iranians: Learn From Egyptians, And We Learned 
From You,'' February 10, 2011, available at <http://
www.iranhumanrights.org/2011/02/wael-ghonim-on-iran/>.
---------------------------------------------------------------------------
    Second, Iranians were encouraged to demonstrate to resist their own 
regime following the fall of President Mubarak in Egypt. Musavi and 
Karrubi called for demonstrations, which occurred in large numbers in 
seven towns and cities on February 14, 2011,\2\ with further 
demonstrations in subsequent days. The slogans on both those days were 
against Ayatollah Ali Khamenei, Iran's so-called Supreme Leader. The 
protestors ignored President Mahmoud Ahmadinejad. This indicates that 
some Iranian discontent is against the system and is no longer about 
the stolen election. Furthermore, it demonstrates that Iranians 
understand where power lies and who bears ultimate responsibility.
---------------------------------------------------------------------------
    \2\ Tehran; Rasht, northern Iran; Isfahan, central Iran; Masshad, 
northwestern Iran; Shiraz, southern Iran; Kermanshah, Iranian 
Kurdistan; Ahwaz, southwest Arab inhabited area. Among the slogans 
were: ``Mubarak, Ben Ali, your turn Seyyed Ali'' (a reference to 
``Supreme Leader'' Ali Khamenei); ``Dictator, run away. Look at 
Mubarak!''; ``Death to the Dictator!''; ``Not Gaza! Not Lebanon! 
Tunisia and Egypt and Iran!''
---------------------------------------------------------------------------
    Similarly encouraging was that the U.S. Government promoted the 
notion that Iran would not escape the wave of Middle East protests. On 
the day of Mubarak's departure the U.S. Government pointedly criticized 
the hypocrisy of the Iranian regime's attempt to claim ownership of the 
Arab uprisings. Tom Donilon, the National Security Advisor Tom Donilon, 
said that ``By announcing that they will not allow opposition protests, 
the Iranian Government has declared illegal for Iranians what it 
claimed was noble for Egyptians.'' \3\
---------------------------------------------------------------------------
    \3\ Tahman Bradley, ``White House Ups Pressure on Iran After Effort 
to Quash Anti-Government Protests,'' ABC News, February 12, 2011, 
available at <http://blogs.abcnews.com/politicalpunch/2011/02/white-
house-ups-pressure-on-iran-after-effort-to-quash-anti-government-
protests.html>. For a useful compilation of statements see Robin 
Wright, ``U.S. Gets Tougher on Iran,'' The Iran Primer, The United 
States Institute of Peace, February 15, 2011, available at <http://
iranprimer.usip.org/blog/2011/feb/15/us-gets-tougher-iran>.
---------------------------------------------------------------------------
    Third, and most importantly, the Arab uprising has now shaken 
Syria, the Iranian regime's close ally and partner in crime. The 
strategic gains from genuine political change in Syria are 
considerable. The Syrian regime is a serial human rights abuser--in its 
own territory and in Lebanon. It is worth remembering that the Syrian 
regime has an even longer career in the terrorism business than the 
Iranian regime, a record that has cost hundreds of American lives. The 
strength of U.S. and allied policy toward Syria during the current 
crisis is a test of our seriousness about confronting Iran. Freedom 
House called for Bashar al-Assad to resign on April 7, 2011, before he 
intensified his crackdown.\4\ By sending in the tanks, Bashar al-Assad 
has proven conclusively that he is as much a reformer as former Soviet 
leader Leonid Brezhnev was when he invaded Czechoslovakia in 1968.
---------------------------------------------------------------------------
    \4\ Press Release, ``Freedom House Calls on Syria's al-Assad to 
Resign, Condemns Indefensible Attacks on Civilians,'' Freedom House, 
April 7, 2011, available at <http://www.freedomhouse.org/
template.cfm?page=70&release=1387>.
---------------------------------------------------------------------------
    Iranians understand the political importance of Syria to 
developments inside Iran. Shirin Ebadi, the 2003 Nobel Peace Prize 
Laureate, has connected the two, telling The Wall Street Journal on 
April 23, 2011 that: ``People are very happy about the uprising of the 
people of Syria. . . . If there is democracy in Syria it's like the 
arms of Iran are cut off,'' she says. ``The people of Iran would be 
very happy if Bashar Assad is toppled because that's the beginning of 
the toppling of the Iranian Government.'' \5\
---------------------------------------------------------------------------
    \5\ David Feith, ``The Weekend Interview With Shirin Ebadi: The 
Education of an Iranian Revolutionary.'' The Wall Street Journal, April 
23, 2011, available at <http://online.wsj.com/article/
SB10001424052748703983704576277373280750408.html>.
---------------------------------------------------------------------------
    The demonstrations of February 14 and 21 have not been repeated on 
a large scale because the Islamic Republic is becoming an increasingly 
efficient and systematic surveillance state. Iran has always been a 
police state of one kind or another. What the Islamic Republic is 
implementing is an Soviet-style approach that relies upon a 
professional approach to surveillance that takes full advantage of 
modern interception capabilities for mobile telephony and the Internet.
    The Iranian regime is pursuing three major policies to repress its 
critics and prevent its opposition from organizing. First, the Iranian 
regime has isolated Mir Hussein Mtisavi and Mehdi Karrubi, the nominal 
leaders of the opposition Green Movement, and their wives, 
distinguished activists in their own right, Zahra Rahnavard and Fatemeh 
Karrubi. They are being held in their homes, which are located in a 
regime sector of Tehran, and are barred from using communications. 
Family visits occur under regime control.
    There are legitimate concerns about the sincerity of their 
commitment to democratic norms and human rights. Both men have waxed 
lyrical about the glories of the 1979 Islamic Revolution and the late 
Ayatollah Ruhollah Khomeini. Musavi's human rights record in government 
was appalling. There are serious questions to be asked about his 
knowledge or involvement in Khomeini-era crimes.\6\ Karrubi recently 
made the fanciful claim that the abuse of prisoners at the Kahrizak 
detention centre in the summer of 2009 would not have occurred had 
Ayatollah Khomeini remained in power.\7\
---------------------------------------------------------------------------
    \6\ Geoffrey Robertson, ``The U.N. must try Iran's 1988 murderers: 
The mass murderers of
1988 now hold power in Tehran. The world must make them face justice,'' 
The Guardian,
June 7, 2010, available at <http://www.guardian.co.uk/commentisfree/
libertycentra1/2010/jun/07/iran-1988-prisoners-murder-international-
court>. See also, Geoffrey Robertson, ``The Massacre of Political 
Prisoners in Iran, 1988, Report Of An Inquiry,'' Abdorrahman Boroumand 
Foundation, April 18, 2011, available at <http://www.iranrights.org/
english/document1380.php>.
    \7\ The Green Voice of Freedom, ``Karroubi: Why do these `generals 
without army' make you shiver and panic?'' January 4, 2011, available 
at <http://en.irangreenvoice.com/article/2011/jan/04/2635>.
---------------------------------------------------------------------------
    The isolation of Messrs. Musavi and Karrubi, along with Mrs. 
Karrubi and Ms. Rahnavard, is a clear violation of human rights and act 
of repression. The United States and its allies have been 
insufficiently vocal about the de facto detention and isolation of 
these four leading Iranian political figures. A good example of how to 
respond occurred in August 1991 when Mikhail Gorbachev was held in 
isolation during the brief Soviet coup. Margaret Thatcher publicly 
called the putschists to account for Gorbachev. We should be asking the 
same tough questions of the Iranian regime.
    Second, the Iranian regime has increased its already high rate of 
executions. The Iranian regime claims that the death penalty in Iran is 
required to maintain order. It does not take much imagination to 
understand that the noose also sends a political message given the 
execution of political dissidents. During 2010 Iran executed between 
312 and 546 persons.\8\ In January 2011 alone, however, 95 persons were 
executed, of whom 6 were identifiably political prisoners.\9\
---------------------------------------------------------------------------
    \8\ Mahmood Amiry-Moghaddam, ``Annual Report of the Death Penalty 
in Iran in 2010,'' Iran Human Rights, February 11, 2011, available at 
<http://iranhr.net/spip.php?article1984>.
    \9\ Abdorrahman Boroumand Foundation ``Iran: In Support of the 
International Campaign Against the Death Penalty,'' February 22, 2011, 
available at <http://www.iranrights.org/english/newsletter-18.php>.
---------------------------------------------------------------------------
    The use of the death penalty in Iran is highly abusive. There is no 
credible criminal process, no transparency in sentencing, and no legal 
protections worthy of the name. Iran imposes capital punishment for 
ill-defined offences such as ``rebellion against God'' (article 190 of 
the penal code) and for sexual behaviour, such as adultery, ``sodomy,'' 
and foreplay between men.\10\
---------------------------------------------------------------------------
    \10\ Human Rights Watch, ``We Are a Buried Generation: 
Discrimination and Violence Against Sexual Minorities in Iran,'' 
December 15, 2010, pages 19-20, available at <http://www.hrw.org/en/
reports/2010/12/15/we-are-buried-generation>.
---------------------------------------------------------------------------
    The growing number of executions prompted an international campaign 
by Iranian activists calling for a moratorium on executions.\11\ The 
United States condemned the execution of the Dutch-Iranian national 
Zahra Bahrami and called for a halt to executions.\12\ Navi Pillay, the 
U.N. High Commissioner for Human Rights, also called for Iran to halt 
executions, as did Christof Heyns, the U.N. Special Rapporteur on 
extrajudicial, summary or arbitrary executions and Gabriela Knaul, the 
U.N. Special Rapporteur on the independence of judges and lawyers.\13\ 
The European Parliament also called for a moratorium on the death 
penalty.\14\
---------------------------------------------------------------------------
    \11\ Statement by the International Campaign for Abolishing the 
Death Penalty in Iran, January 29, 2011: ``In the past 36 days 
(December 20 to January 27) alone, 117 individuals were hanged and many 
more are awaiting to face the gallows,'' available at <http://
stopexecution.info/en/137>.
    \12\ Philip J. Crowley, Assistant Secretary, Bureau of Public 
Affairs, ``Concern for the Denial of Human Rights in Iran,'' State 
Department, January 31, 2011, available at <http://www.state.gov/r/pa/
prs/ps/2011/01/155719.htm>.
    \13\ U.N. Office of the High Commissioner for Human Rights, 
``Alarmed at rise in killings, U.N. rights chief urges Iran to halt 
executions,'' U.N. News Centre, February 2, 2011, available at <http://
www.un.org/apps/news/story.asp?NewsID=37443&Cr=lran&Crl>.
    \14\ ``European Parliament resolution of 10 March 2011 on the EUs 
approach towards Iran,'' (2010/2050(INI), P7-TA-PROV(2011)0096, 
available at <http://www.europarl.europa.eu/document/activities/cont/
201103/20110322ATT16074/20110322ATT16074EN.pdf>.
---------------------------------------------------------------------------
    These statements clearly had some effect, despite the usual regime 
response of public defiance. The publicly recorded rate of executions 
has certainly declined. However, along with our colleagues at the 
International Campaign for Human Rights in Iran, we are concerned 
executions are being conducted in secret.\15\
---------------------------------------------------------------------------
    \15\ International Campaign for Human Rights in Iran, ``Ten More 
Secret Executions at Mashad's Vakilabad Prison,'' February 9, 2011, 
available at <http://www.iranhumanrights.org/2011/02/ten-more-secret-
executions-at-mashads-vakilabad-prison/>.
---------------------------------------------------------------------------
    Third, the Iranian regime is engaged in a Soviet style attempt to 
break its political prisoners. Human rights activists have received 
lengthy prison sentences simply for advocating for fundamental 
freedoms. Their treatment in prison has been harsh. Some activists have 
been sent to prisons far from their homes, making it difficult for 
their family members to visit them. On some occasions family members 
are not allowed to visit or have their prison visits curtailed. The 
Iranian regime has locked away many hundreds of peaceful dissidents.
    An example of the use of prison as a form of psychological and 
physical pressure was the transfer of female political prisoners and 
200 other inmates from Rajaei Shahr Prison in Karaj province, to 
Qarchak Varamin Prison in Qom province on May 3, 2011. Rajaei Shahr has 
a reputation for being a harsh place, a prison used to break the 
recalcitrant and the defiant. It currently holds such prominent 
political prisoners as the student leader Majid Tavakkoli and the 
trades union leader Mansour Osanloo.
    By all accounts, Qarchak Varamin is worse. Many of its 2,000 
prisoners are hardened criminals. Each of the seven wards at Qarchak 
Varamin has a capacity for 100 prisoners, but currently holds around 
300. Each ward has just two bathrooms and two toilets. Prisoners are 
allowed outside for fresh air and exercise for no more than 2 hours a 
day. There is no prison shop, as exists in Evin Prison in Tehran and 
Rajaei Shahr, for prisoners to buy food and medical supplies.
    Among the political prisoners at Qarchak Varamin that we know of 
are: Shabnam Madadzadeh, Maryam Hajiloei, Maryam Akbari Monfared, 
Masomeh Yavari, Kobra Banazadeh, Motahareh Bahrami, Mahvash Sabet, 
Fariba Kamalabadi the last two are Baha'is imprisoned for trying to 
help others practice their religion.
    It is invidious to choose among these many cases, but three in 
particular illustrate the nature of repression in Iran:

        Nasrin Sotoudeh--in Iran it is a crime to be a lawyer.
          Nasrin has represented juveniles facing the death penalty, 
        abused children, and has defended the civil rights of human 
        rights activists in Iran. Her crime appears to have been that 
        she was the lawyer representing human rights activists, 
        including Shirin Ebadi. Nasrin is currently serving an 11-year 
        sentence. She also faces a 20-year ban from practicing law and 
        from leaving Iran after the end of sentence. Nasrin's own 
        lawyer, Nasim Ghanavi, has also been summoned and interrogated 
        before by Iran's Revolutionary Court. Put otherwise, the 
        Iranian regime has harassed the lawyer of the lawyer of the 
        lawyer. The Iranian regime has also arrested and threatened 
        Nasrin's husband, Reza Khandan, for speaking to the media about 
        his imprisoned wife.

        Navid Khanjani in Iran it is a crime to be a human rights 
        activist.
          Navid Khanjani is a student rights activist currently on 
        probation but facing a 12-year sentence. He has also has been 
        banned from attending university and from leaving the country. 
        Navid was physically abused during his interrogations. A Baha'i 
        who helped to found the Baha'i Education Rights Committee, 
        Navid also worked with two human rights organizations. The 
        Iranian regime refuses to recognize the Baha'i religion, 
        persecutes its followers, and uses a variety of administrative 
        measures to keep Baha'is out of universities.

        Hossein Ronaghi-Maleki in Iran it is a crime to promote 
        Internet freedom.
          Hossein Ronaghi-Maleki is a student of computer programming 
        serving a 15-year sentence. Hossein helped create Iran's 
        largest domestic anticensorship group ``Iran Proxy.'' He spent 
        close to 10 months in solitary confinement in Evin Prison in 
        Tehran. The authorities have harassed his family after they 
        talked to the media about their fears for Hossein's health.
           four ways to help iranian dissidents and democrats
    There are four approaches that can be taken in response to the 
widespread violation of human rights in Iran, measures that will also 
assist Iranians as they seek to unite and organize against this evil 
regime.
    First, we can break the isolation of the political prisoners by 
supporting them. Members of the U.S. Congress, such as Senators Casey 
and Kirk to give two examples, have already started to ``adopt'' 
Iranian political prisoners, a tactic that proved highly effective when 
used to support the Soviet dissident and refusenik movements.
    Campaigns for prisoners work. According to Roxana Saberi, an 
American journalist held in prison in Iran for 100 days in early 2009:

          When I was incarcerated in Iran's Evin Prison last year on a 
        trumped-up charge of espionage, I was fortunate that my case 
        received a great deal of international attention. I was not 
        aware of the extent of this attention until the day my 
        interrogator allowed me to lift my blindfold to see a pile of 
        news articles on a desk in front of me. As he read aloud the 
        names of journalism and human rights organizations, Iranian-
        American groups and others that had been calling for my 
        freedom, I realized he was trying to scare me into thinking 
        that this outcry was bad for me. But suddenly I no longer felt 
        so alone. Friends and strangers were standing with me, and I 
        didn't have to face my captors by myself anymore.\16\
---------------------------------------------------------------------------
    \16\ Roxana Saberi, ``A Chance To Stand Tall Against Iran on Human 
Rights,'' The Washington Post, May 13, 2010, available at <http://
www.washingtonpost.com/wp-dyn/content/article/2010/05/12/
AR2010051204297.html>.

    Second, we can increase the prominence of the human rights issue in 
U.S. and allied policy toward Iran. This process has already started, 
but it can be intensified.
    President Obama's Nowruz (Iranian New Year) message on March 21, 
2011, was an important change. The President mentioned Nasrin Sotoudeh; 
the filmmaker, Jafar Panahi; the journalist Abdolreza Tajik; the 
Baha'is and Sufi Muslims; Mohammad Valian a student on death row; and 
the poet, Simin Behbahani.\17\ The contrast with President Obama's 2009 
Nowruz message, which mentioned the Islamic Republic of Iran and ``its 
rightful place in the community of nations'' was striking and 
welcome.\18\
---------------------------------------------------------------------------
    \17\ ``Remarks of President Obama Marking Nowruz,'' The White 
House, Office of the Press Secretary, March 20, 2011, available at 
<http://www.whitehouse.gov/the-press-office/2011/03/20/remarks-
president-obama-marking-nowruz>.
    \18\ ``Videotaped Remarks by the President in Celebration of 
Nowruz.'' The White House, Office of the Press Secretary, March 20, 
2009, available at <http://www.whitehouse.gov/the-press-office/
videotaped-remarks-president-celebration-nowruz>.
---------------------------------------------------------------------------
    In a similar fashion, EU countries have become far more vociferous 
on human rights issues in Iran. My own country, the United Kingdom, has 
taken the lead on this issue in the EU.
    Diplomacy can enhance the effect of symbolically standing with the 
protestors rather than seeking to sit and talk to the regime. The U.S. 
and its allies can continually raise the issue of Iranian human rights 
violations, and the continued illegal detention of two American 
citizens Shane Bauer and Josh Fattal,\19\ in bilateral and multilateral 
diplomacy. The U.S. and its allies can ask the Iranian regime to 
implement a moratorium on executions to demonstrate that it take 
international norms, whether on human rights or nuclear proliferation, 
seriously.
---------------------------------------------------------------------------
    \19\ More details on their case are available at <http://
freethehikers.org/>.
---------------------------------------------------------------------------
    Third, we should push ahead with sanctioning the abusers and those 
who assist abuse. The United States has already listed 10 Iranian human 
rights abusers, the EU a total of 32.\20\ The U.S. sanctioning of 
Iranian human rights abusers results from the provisions of the 
Comprehensive Iran Sanctions, Accountability and Divestment Act (2010).
---------------------------------------------------------------------------
    \20\ The Council of the European Union, ``Council Regulation (EU) 
No. 359/2011 of 12 April 2011 concerning restrictive measures directed 
against certain persons, entities and bodies in view of the situation 
in Iran,'' Official Journal of the European Union, April 14, 2011, 
available at <http://eur-lex.europa.eu/LexUriServ/
LexUriServ.do?uri=OJ:L:2011:100:0001:0011:EN:PDF>.
---------------------------------------------------------------------------
    Human rights sanctions are a useful and effective way of targeting 
abusers and communicating international concerns to the Iranian people. 
They complement the existing economic and financial sanctions because 
they act in a different manner. Economic and financial sanctions are 
important. The difficulty with such sanctions can be that their 
enforcement requires cooperation from third parties such as foreign 
countries and companies. In addition, the regime portrays can easily 
portray such economic and financial measures as indiscriminate attacks 
on Iran as a country.
    By contrast, human rights sanctions are easier to initiate and have 
tremendous symbolic effect. The more abusers we sanction, and the lower 
level regime thugs whose names appear on U.S. and EU lists, the more we 
illuminate the mechanism of repression. Such sanctions can be 
unilateral and require nobody else's cooperation. They often have 
little practical effect as abusers do not travel to the United States, 
or the EU, nor do they have assets here. However, what such sanctions 
communicate unequivocally is that the Iranian regime is the problem, 
not the people of Iran.
    In addition, denying visas to the family members of regime abusers 
is also a useful measure that does not require additional legislation. 
The ability of family members of regime officials to globe trot using 
their ill gotten gains is greatly resented in Iran. We should encourage 
these people to take their holidays at home.
    The recently announced Iran Human Rights and Democracy Promotion 
Act addresses the issues above. The Iran Human Rights and Democracy 
Promotion Act is being sponsored by Senators Kirk and Gillibrand from 
this Chamber by Representatives Dold and Deutch in the other place. The 
act proposes a U.S. Special Representative on Human Rights and 
Democracy in Iran. The U.S. Special Representative can work in tandem 
with the U.N. special rapporteur for human rights in Iran that the U.N. 
Human Rights Council voted for on March 24, 2011.
    Fourth, we can redouble our efforts to assist Iranian human rights 
and civil society activists. In practical terms that means funding 
programmes that enable Iranian dissidents and democrats to communicate 
with each other safely and to organize, to document regime abuses and 
to report them.
    We do not know when Iranian activists will be able to fully use 
such training and education. Our experience in Egypt and Syria was that 
there were lean years in which it seemed as if we were assisting a 
small number of people with limited chances to use their skills to 
defend human rights and advocate for freedom. Then to everybody's 
surprise opportunity knocked and suddenly those activists had valuable 
skills to share with others. The people of Iran deserve to be better 
prepared for their next chance of freedom.

    Senator Casey. Thanks very much.
    Mr. Hosseini.

 STATEMENT OF KAMBIZ HOSSEINI, VOICE OF AMERICA, WASHINGTON, DC

    Mr. Hosseini. Thank you very much, Mr. Chairman.
    Chairman Casey and distinguished members of the 
subcommittee, and honored panelists and guests, my name is 
Kambiz Hosseini. I'm the host and writer of the program called 
``Parazit'' on the Voice of America Persian News Network.
    This subcommittee has heard from distinguished policymakers 
and human rights activists. I respectfully point out to the 
honorable chairman of the subcommittee that I am a journalist, 
satirist, comedian, a bad boyfriend, and just a plain old 
Iranian who wants to help his country.
    My testimony today reflects my personal perspective. It 
does not represent the view of the U.S. Government. I hope it 
will be of value to the subcommittee in considering the 
critical issues of human rights and democratic reform in Iran.
    I and a talented team of producers began our program in 
2009, with the goal of bringing a fresh and entertaining 
perspective on events inside Iran to our audience. Our goal 
remains the same as it was since the beginning: being the voice 
of voiceless youth inside Iran, and projecting and amplifying 
what they are whispering on the streets.
    Despite all governmental pressure to limit basic freedom in 
Iran, my generation is sending--I was born in 1975, by the 
way--sending a clear message to the Islamic Republic. We want 
our basic rights as human beings. We criticize the Iranian 
Government with respect, and we make fun of hypocrisy of 
political figures in a civilized manner. We try to be civilized 
with them, even though they're not civilized with us. We offer 
dialogue, and we defend universal human rights and values for 
all Iranian, including those authorities inside Iran who 
dislike the show because of its anticensorship spirit.
    And how we do it? We do it Persian-style, with humor--dark 
humor. Dark, because nothing bright is coming out of today's 
Iran, where women are forced to obey laws that are 
discriminatory, children are being executed, information is 
censored, prisoners don't have basic rights, lawyers are in 
jail simply because they wanted to defend human rights, and 
artists and filmmakers, like Jafar Panahi, who is an 
internationally acclaimed director, is prohibited from pursuing 
his art for next 20 years. Imagine, 20 years. If that happens 
to me, I'll commit suicide today.
    I believe that currently in Iran the human rights situation 
is absurd, and that's exactly what our program is doing, 
showing the absurdity of the system to the audience. Believe 
me, watching irrational--if you knew Persian and you watched 
the irrational and illogical speeches made by the officials in 
Iran, they're as funny as watching ``Waiting for Godot'' live 
for 3 hours. You would laugh. That's what we are doing right 
now.
    And it's working. Our show is working. And we have over 
428,000 fans, just on Facebook, where they leave comments 
proactively and communicate with us in a manner that sometimes 
make us think that they are producing this show and we are 
their audience. Our broadcasts reach Persian-speaking audience 
in Iran and the entire Persian-speaking world, including the 
large Iranian diaspora outside Iran.
    As the Iranian Presidential election of summer 2009, and 
their aftermath, unfolded, our show became an important 
rallying point for many Iranians, particularly young Iranians, 
to stay connected and continue their quest for democratic 
change in Iran. We have continued this dialogue with our 
audience ever since. We use all available communications means 
to stay connected, and our audience in Iran remains in touch, 
despite the Iranian Government's severe limitations on 
electronic communications and free access to information.
    It's important to note that many people in Iran struggle to 
view our program, as the Iranian Government has aggressively 
jammed our satellite broadcasts. In fact, our program name, 
``Parazit,'' means ``static'' in Persian, which is what many 
Iranians' viewers see when they try to view or listen to 
international satellite broadcasts their government has jammed.
    But, we will continue to reach out, you know. We're sending 
the message of hope for our audience. Our audience is why we do 
``Parazit.'' I believe our program speaks to, and for, the many 
people inside Iran who lack the freedom to express themselves.
    We remain in constant contact with our viewers and fans. 
And they help shape the direction of our show. When we announce 
a guest for our program, for instance, thousands of suggestions 
and questions flood in from our viewers and help to inform the 
questions we ask our guest. In addition, we welcome and respond 
to viewer feedback on who deserves mention for positive and 
negative actions within Iran. Through this and other means, we 
give our audience a chance to speak out about conditions and 
events in Iran they might not otherwise have.
    Perhaps someday the Iranian Government will lift the 
electronic curtain it has built around its people. Unless and 
until that day comes, our show and VOA Persian, in general, 
will work to keep the lines of communication between the 
Iranian people and the United States open.
    I thank the chairman and the distinguished subcommittee for 
the opportunity to offer my comments, and would be pleased to 
respond to any easy question. [Laughter.]
    [The prepared statement of Mr. Hosseini follows:]

                 Prepared Statement of Kambiz Hosseini

    Chairman Casey and distinguished members of the subcommittee and 
honored panelists and guests, my name is Kambiz Hosseini, and I am the 
host of the program ``Parazit'' on the Voice of America's Persian News 
Network. This subcommittee has heard from distinguished policymaker and 
human rights activists. I respectfully point out to the honorable 
chairman and the subcommittee that I am a journalist, satirist, and 
program host. My testimony today reflects my personal perspective; it 
does not represent the views of the U.S. Government. I hope it will be 
of value to the subcommittee in considering the critical issues of 
Human Rights and Democratic Reform in Iran.
    I and a talented team of producers began our Program in 2009, with 
the goal of bringing a fresh and entertaining perspective on events 
inside Iran to our audience. Our goal remains the same as it was since 
the beginning: being the voice of voiceless youth inside Iran and 
projecting what they are whispering on the streets. Despite all 
governmental pressure to limit basic freedom in Iran, my generation is 
sending a clear message to the Islamic republic: we want our basic 
rights as human beings. We criticize the Iranian Government with 
respect, and make fun of political figures in a civilized manner. We 
offer dialogue and we defend universal human rights and values for all 
Iranians including those authorities inside Iran who dislike the show 
because of its anticensorship spirit. And how we do it?
    We do it Persian style! With humor. Dark humor. Dark because 
nothing bright is coming out of today's Iran, where women are forced to 
obey laws that are discriminatory, children are being executed, 
information is censored, prisoners don't have basic rights, lawyers are 
in jail simply because they wanted to defend human rights, and artists 
and filmmakers like Jafar Panahi who is an internationally acclaimed 
director is prohibited from pursuing his art for next 20 years. I 
believe that currently in Iran the human rights situation is absurd and 
that is exactly what our program is doing: showing the absurdity of the 
system to the audience.
    Believe me--watching irrational and illogical speeches made by 
officials in Iran are as funny as Waiting for Godot live! And it is 
working. We have over 428,000 fans just on Facebook, where they leave 
comments proactively and communicate with us in a manner that sometimes 
makes us think that they are producing this show and we are their 
audience. Our broadcasts reach Persian speaking audiences in Iran and 
the entire Persian-speaking world, including the large Iranian diaspora 
outside Iran.
    As the Iranian Presidential elections of summer 2009 and their 
aftermath unfolded, our show became an important rallying point for 
many Iranians--particularly young Iranians--to stay connected and 
continue their quest for democratic change in Iran. We have continued 
this dialogue with our audience ever since. We use all available 
communications means to stay connected, and our audience in Iran 
remains in touch despite the Iranian Government's severe limitations on 
electronic communications and free access to information. It is 
important to note that many people in Iran struggle to view our 
program, as the Iranian Government has aggressively jammed our 
satellite broadcasts. In fact, our programs name ``Parazit'' means 
``static'' in Persian--which is what many Iranian viewers see when they 
try to view or listen to international satellite broadcasts their 
government has jammed.
    But we will continue to reach out--for our audience. Our audience 
is why we do ``Parazit.'' I believe our program speaks to--and for--the 
many people inside Iran who lack the freedom to express themselves. We 
remain in constant contact with our viewers and fans, and they help 
shape the direction of our show. When we announce a guest for our 
program, suggestions for questions flood in from our viewers, and help 
to inform the questions we ask our guest. In addition, we welcome and 
respond to viewer feedback on who deserves mention for positive and 
negative actions within Iran. Through this and other means, we give our 
audience a chance to speak out about conditions and events in Iran they 
might not otherwise have.
    Perhaps someday the Iranian Government will lift the ``electronic 
curtain'' it has built around its people. Unless and until that day 
comes, our show and VOA Persian in general will work to keep the lines 
of communication between the Iranian people and the United States open. 
I thank the Chairman and the distinguished subcommittee for the 
opportunity to offer my comments, and would be pleased to respond to 
any questions.

    Senator Casey. Thank you very much.
    We're so grateful to each of you for your appearance today 
and for your testimony. We are reminded that, when we confront 
a challenge this difficult, in terms both what the Iranian 
people are up against and the international response, 
government alone, and governments alone, cannot solve this 
problem or provide the kind of help that we need. So, those who 
are outside of government and are providing the kind of 
testimony and advocacy that you've already demonstrated, 
whether your expertise is in communications or in public policy 
or in the arts or other ways to communicate, it's critically 
important.
    And, for each of you, whoever would want to respond to 
this--I don't necessarily direct it at any one person--but, how 
would you assess, right now, the strength, or the status, maybe 
is a better word, of the Green Movement today? And just give us 
kind of your sense of where things are. Because, of course, for 
many Americans, the coverage, in June 2009, was significant. 
There are some other events that played out in that same time 
period that, at least in my judgment, watching it and 
remembering it, started to push the story off the television, I 
think, unfortunately, at the time. But, I wanted to get your 
sense of where things are today.
    Ms. Bakhtiar. I'd like to say that the civil and human 
rights movement inside of Iran is alive and well, as you saw in 
the broad massive demonstrations, a couple of years ago and 
subsequently. However, the reason why you're not seeing that 
same outpouring of popular discontent is because Iran has had, 
now, 2 years to basically hone its repression skills, its 
repression machinery, if you will. And it has nearly a complete 
monopoly over mass communications. And it is basically using 
the high price of oil to bankroll this kind of repression on 
the Iranian people.
    And you also have to understand the psyche of the Iranian 
people. We're coming out of 30 years of a recent history of 
mass violence, starting with the 1979 Revolution, then, 
subsequently, the
8-year Iran/Iraq war, leaving hundreds of thousands dead, and 
then the mass executions that followed afterward, and the 
extreme repressions. These have left the Iranian people deeply 
scarred and wishing to see their aspirations for democracy in 
Iran to come to fruition in a bloodless way.
    They've also witnessed what's going on around them, 800-
plus killed in Syria, thousands killed in Libya, massive 
repression in Bahrain. And they have no doubt that their own 
government is willing to use the same repression and kill 
thousands to stay in power.
    And they're actually showing a sign of political maturity 
to not want to start this violence and bloodshed. They 
basically believe that any form of transformation that comes 
with heavy violence also has the danger of bringing forward 
another violent and repressive regime. At the same time, they 
also understand that the popular aspirations of the people of 
Iran, for democracy and human rights, can't be stifled forever.
    Now, what can we do to help them? We need to try to create 
an environment where they can have access to information. We 
need to expose these massive human rights violations and also 
empower their communications means, which I have several 
concrete ideas, if you'd like, I can later address. And we 
believe that, when this environment is created, where Iranian 
people can communicate, where they have access to information, 
that environment will again allow them to collectively raise 
their voices. But, unfortunately, no one can predict when. 
There's always a chance that an unpredictable event can spark 
protests and mass demonstrations again.
    Senator Casey. Thank you, Ms. Bakhtiar.
    Would either of our two other witnesses like to comment on 
this?
    Mr. Apostolou. Got it, thank you very much.
    Well, first of all, as I mentioned, the leaders have been 
isolated. So, that's obviously had an effect. But, what was 
interesting was the demonstrations in mid-February that 
followed the fall of Mubarak, which showed, you know, people 
Iran are watching what's happening elsewhere.
    In terms of the horizontal connections among the movement, 
many of these have now been broken. Many of the organizers have 
been arrested or they've been forced to flee the country. But, 
at the street level, there's clearly a lot of discontent. What 
we've seen is that there are people organizing autonomously. 
Clearly, helping them with organizational techniques is very 
important. I've spoken to Arab activists who have said to me--
and actually, Wael Ghonim, the Google executive, said this 
publicly--that they were inspired by what the Iranians did in 
2009. They were amazed. They said, ``Wow, the Iranians stood up 
to that regime? Well, I can do that in my own country.'' And 
what's interesting is to hear from those Arab activists, who 
now say, ``Well, I'd like to help the Iranians, in turn, 
because they inspired me.''
    So, I think there is great potential there. But, you know, 
I think Rudi's absolutely right, we shouldn't expect people to 
stick their necks needlessly on the line, but I think the 
occasion will come.
    Mr. Hosseini. I just want to add something really quick, 
that you don't see clear evidence of protests, on physical 
evidence. But, online this movement does exist, where people 
can go without, you know, getting identified, and all that.
    And it's so interesting that now, when, for instance, a 
football player--a soccer player says something about 
government, he becomes the icon, and he becomes the talk of the 
town. And people go after him and try to support him on live 
show, keeping--keep calling the sports shows, because--not 
because of he's a good soccer player, because he made that 
comment about government. So, it's just--like they said, it's 
fire under ashes. And any opportunity that that movement that 
has changed, shifted from, ``Where is my boat?'' to, ``Death to 
the dictator,'' and broad prodemocracy movement will explode.
    Senator Casey. By way of followup, before I move to Senator 
Risch, that last point you made, I think is very important. I 
said, at the time, and I think I've said it a number of times 
since then, that even though we didn't see people on the 
streets, month after month, and we didn't have a lot of 
coverage of it, that I've always believed that, once something 
stirs in someone's heart and they want to take action, just 
because they're not on the streets every day, doesn't mean that 
there isn't a movement. It might be quieter, it might be more 
repressed, but it's still there. And I think there's plenty of 
evidence to show that.
    And I think we also, here in the United States, tend to 
underestimate how difficult it is to start and to take action 
and to sustain what we've seen both in Iran, as well as in 
Tunisia and Egypt and Syria, among other places that we could 
mention.
    I have a few other questions, but we'll move to Senator 
Risch.
    Senator Risch. Let me ask you this. What was the pool of 
people--how many people were in the pool who were looked at as 
the leaders of the movement in 2009? Was it ``an'' individual, 
two individuals, three individuals? What was the pool of these 
people? Whoever wants to take that on.
    Ms. Bakhtiar. The pool of the individuals that they were--
I'm sorry, can you ask the question again?
    Senator Risch. Well, how many leaders were there of the 
protests, in 2009?
    Ms. Bakhtiar. Well, I think the natural leader came out to 
be President Mousavi, as you saw. He was the natural leader. 
But, also you saw various voices. You saw President Khatami, 
the former President, also speaking out. You saw Karroubi, 
another opposition leader, speaking out. So, there are various 
leaders, but obviously all of them have been silenced right 
now.
    Senator Risch. And that's the followup I have. I--you know, 
I--the individuals you've identified, of course, we all saw. 
But, I mean, the way these things work, generally, somebody 
else is in charge of the mechanics, as opposed to these people 
who are speaking out. Is it the same thing there? They've been 
silenced? They've been----
    Ms. Bakhtiar. One of the first things you saw, right after 
the elections that same day, was the raiding of Mousavi 's 
headquarters and the arrest of several of his key men. And 
that's what's basically been happening. There's been a lot of 
arrests of the top opposition, right under the top echelon; 
even their sons, their daughters have been arrested. And also 
the key players in the Green Movement have been arrested, so 
that the movement was brought, basically, to a virtual 
standstill for a while, it seemed.
    But, again, this movement has no natural leaders anymore. 
It's become a movement of everybody who opposes this 
government, everybody who wants freedoms, and everybody who 
wants human rights respected in this country. So, it has become 
a very undefined movement, basically almost a civil rights 
movement for human and civil rights.
    Senator Risch. And is there someone who--my impression is 
that movements always do better if they've got a strong leader. 
Is there a person like that, that people look to as--that they 
may rise, at some point in time, to lead this?
    Ms. Bakhtiar. When you look at the youth of Iran that are 
in the prisons right now--the Navid Khanjanis, the Emid Baghis, 
the Nasrin Sotoudehs, the Seifzadehs, the Mohammad 
Koboudvands--these are all potential leaders in Iran's future. 
But, I can't think of anybody who has risen right now, other 
than the leaders that we've mentioned, as a particular figure 
to be leading the movement.
    Senator Risch. And all these people that you have indicated 
have been--that were arrested shortly after the elections--do 
you track those people, as far as where they are or what's 
happening to them, or what have you?
    Ms. Bakhtiar. Yes, we do. There were numerous people 
arrested. And, of course, that's part of our organization's 
job, to track them, to see who's been released, what sentencing 
they're receiving. And you have to understand, you saw the show 
trials. Many of these protestors have been arrested, they've 
been tortured, they've been forced into giving false 
confessions, they've been tried, and they've been sentenced 
unjustly. In some cases, people have been executed. And this is 
basically what's unfolding inside the prisons of Iran.
    Senator Risch. Is there a standard for the execution, or it 
subjective? That is, they just choose people that they think 
are going to be----
    Ms. Bakhtiar. There is a judge that we have targeted as 
part of the 15 men of violence our organization is targeting as 
Iranian officials that are responsible, directly, for the human 
rights violations that are going on inside the country. Judge 
Salavati, we're trying to figure actually what his credentials 
are to be a judge. But, he is also one of the judges who's 
doling out very harsh sentencing--10 years, 9 years--for 
protestors. And he is also sentencing young men to death for 
protesting, saying that they were protesting, when they weren't 
protesting, in the case of Arash Rahmanipour, a young 19-year-
old who was executed last year, on claims of enmity with God.
    So, there are judges, yes, doling out unfair sentences 
based on--for example, another young man, Mohamad Valian was a 
20-year-old who was arrested. And they had taken his picture 
throwing three stones at a protest. And they arrested him, and 
his trial lasted 7 minutes. And, in 7 minutes, he was 
convicted, to death. Now, we were able to launch a video 
campaign and get that death sentence overturned to 3 years. 
But, again, this is what we're dealing with, a very haphazard, 
unjust way of sentencing the Iranian people.
    Senator Risch. Is there any sense that any of these 
individuals understand that, when and if the regime crumbles, 
that they're going to be held accountable, either by the 
Iranian people or by World Court or something like that? Is 
there any sense of that at all?
    Ms. Bakhtiar. Well, I'm sure there is. I'm sure that speaks 
to the level of repression we're seeing there. It seems like 
they are looking around the region and what's going on in the 
region, and upping the ante on the repression in their own 
country. So, I believe that, yes, they do understand that they 
will be subject to international law, and, eventually, the law 
of their own country.
    Senator Risch. Finally, you made reference, on page 4 of 
your remarks; you said several European companies are suspected 
of selling surveillance technologies to Iran. Can you identify 
those companies for me?
    Ms. Bakhtiar. Yes. I'd like to speak to the issue of access 
to information and safe communications, which are two areas 
which the United States must be proactive in and should be 
focusing on.
    With regards to the Internet, we're strongly recommending 
investing in wireless, satellite-based technology. There's 
technology right now inside of Iran which actually would allow 
the Iranian people to download the Internet through their 
television via their satellite dishes. We need to provide the 
service for that.
    Now, as long as the Internet is carried through fiber 
optics, we have to find a way to counter that, because fiber 
optics will always allow a government to block it, and always 
has the ability to be controlled by the government. So, the 
sooner that we invest in the wireless technology, the better.
    Now, with regards to satellite television, Iran 
consistently is jamming television broadcasts, as well, which 
is very illegal. It's against international law. And, by all 
means, we should stop it. And we can stop it, because, 
ironically, the same satellite company which is beaming in the 
programming from outside of the country--which we were talking 
about, like ``Parazit'', which is being blocked by the Iranian 
Government--that same satellite company, which is called 
Eutelsat, is also the same company that is also providing, 
inside of Iran, the state-controlled television and radio 
information.
    So, the way we need to operate here is, force Eutelsat to 
basically hold Iran accountable and hold Iran to international 
standards. This is easily doable. What you tell them is, is, 
``Either you get Iran to stop jamming programming from outside 
the country, or they lose the opportunity to channel their own 
programming into the country, because you can stop--Eutelsat 
can stop sending programming into the country.'' And the U.N. 
agency, the International Telecommunications Union, should 
strongly pressure Iran to stop its illegal jamming activity, as 
well.
    Senator Risch. Ms. Bakhtiar, you still didn't name the 
several European companies that are suspected of selling 
surveillance equipment to----
    Ms. Bakhtiar. Yes. I'm sorry, I don't have that information 
right now.
    Senator Risch. OK.
    Thank you, Mr. Chairman.
    Senator Casey. Thanks very much.
    I wanted to ask a question in reference to testimony 
provided to us this morning by Mr. Hosseini. On page 2 of your 
testimony--and you highlighted part of this in your summary of 
the testimony--you say, and I'm quoting, ``We have over 428,000 
fans, just on Facebook where they leave comments proactively 
and communicate with us in a manner that sometimes makes us 
think that they are producing the show and we are their 
audience. Our broadcasts reach Persian-speaking audiences in 
Iran, in the entire Persian-speaking world, including the large 
Iranian diaspora outside of Iran.'' That's from your statement.
    And I'd ask you, based upon all of that interaction that 
you have, what advice do you have for us to be able to keep 
making the case, not just against the regime, but about the 
moral gravity of this challenge that we face? Because sometimes 
bills and legislation and action here doesn't translate very 
well, and we often don't communicate very well. And I just want 
to get your sense of how you see this challenge, from your 
vantage point.
    Mr. Hosseini. I want to refer to what you mentioned 
earlier, about--that the human rights issue in Iran is a moral 
issue for United States, a moral obligation, moral duty. I 
think you should communicate with people, via media, and 
translate this for them, and try to let them know that, ``Hey, 
this is how we think, here, United States, and this is a moral 
value for us.''
    And also, don't underestimate the power of media. I believe 
we can do a lot with what we have in Persian Service, if we had 
just a little bit more money. You know, we could pump it up to 
something very more interesting than what we have right now. 
And this is the only channel of communication that we have with 
Iranian people. And supporting them with this only channel of 
communication, I think, to me, we can proceed a lot with all we 
want to do, as a human being, and help them.
    This is the only thing I can recommend. Support media and 
don't underestimate the power of media.
    Senator Casey. And you purposefully named the show 
``Parazit'', which means ``static.'' Tell me about that, in 
terms of the thematic underpinning of that name, why you chose 
it, and how it's so relevant.
    Mr. Hosseini. Look, I basically made the show for myself. 
When I was a young--younger man in Iran, I used to go through 
those channels and I--you know, I was thirsty to get some sort 
of information. You know, please, give me some sort of truth. 
Because you can't--you know, any normal man in the world who 
watches the state media in Iran, you can say they're lying. 
You--that's--you use your common sense. This is what we do on 
our show, too; we use common sense a lot. You use your common 
sense, as a viewer, you sit down and you watch the state media; 
you know they're lying. You know you can't trust these people.
    I make the show for myself, a young man who was thirsty to 
get information. When I sit in front of camera, I'm like--I see 
myself in my little room, in the small town in Iran. And I used 
to--this is my experience--I used to surf through the channels, 
and I'd see a lot of static, because of the jamming, you know. 
And it's frustrating that you see all the static. And through 
all the noises, you want to hear something, you know, a 
sentence from a newscaster or something. So, I thought, why not 
we call our self ``Static''? That's who we are. And we're going 
to be static in Iranian government's face.
    Senator Casey. You're obviously reaching a lot of people in 
a very direct way, and especially young people. What do you see 
as the main impediment that you confront to making your 
audience even bigger? Is there a mechanical impediment, or is 
it more complicated than that?
    Mr. Hosseini. Yes, we have--like Rudi said, we have this 
Green Movement that is alive, and we have all those people 
that--who oppose the government--are with us; they agree with 
whatever we say, and we all have that base of audience that we 
have had.
    We are trying to reach out to those lower-class people, who 
voted for Mr. Ahmadinejad and who are supporting the 
government, despite the fact that this government is brutally 
violating human rights in Iran every--everyday basis. So, what 
we are trying to do is win the heart and mind of those lower-
class people, who are getting paid by government to survive, 
and they have no choice--
morally, sometimes they know that this is wrong, what they're 
doing. But, they're getting paid, they have to survive. We're 
trying to reach out to them. Like those Basijis and plain-
clothed people that you see on the streets, we're trying to 
communicate with them. Like, we had a show, a couple of months 
ago, that we communicated directly with Basijis, and we talked 
to them, and we said--and we got some responses, too, from 
them.
    We get e-mails from people who support Ahmadinejad and who 
support Abdul Khameini. And it's very interesting to--I can 
forward some of them to you, if you're interested to read 
those. They're very interesting to see that people are 
frustrated. The economy is not that good in Iran, and people 
are struggling to survive. And that's their main--this is the 
main concern right now: economy. They want to feed their 
family, and they can't do it. So, those people, they're 
communicate with us. They send us e-mail, they send us 
comments, and all that. And it's heartbreaking, but those are 
the people we're aiming for: lower class, people who live in 
small cities and villages, and they vote for certain candidate 
without knowing who that person is.
    Senator Casey. And you obviously think some of them are 
persuadable, to use a word in our lexicon. Yes?
    Mr. Hosseini. Yes.
    Senator Casey. And even some--a good number who may have 
been supporters of Ahmadinejad in the past?
    Mr. Hosseini. Yes. We, as our audience is growing, we 
suspect that we're getting some of those, you know? Because how 
many people can--how do you call a show popular? How many 
people in a 70 million population country can watch a show that 
you call that show popular? And I think we have the base of all 
oppositions on our show, but we're getting bigger every day. 
The number I told you, 428,000, a week ago--10 days ago, we had 
4--we just reached 400,000; so, 28,000 in 10 days. To me, it's 
skyrocketing, these numbers, and I'm sure that we're tapping 
into the lower class, because now they're interested in our 
common sense.
    Senator Casey. I'd ask the same question to the other two 
witnesses. Is there anything you can tell us about this 
communications challenge, and what is the best strategy?
    Mr. Apostolou. Well, thank you very much.
    I think what Kambiz has done is very important. Because, if 
you think about it, in any dictatorship, to be a subject of 
that dictatorship is to be a target of broadcast; that's all 
they're doing to you all day: broadcasting, broadcasting, 
broadcasting. In his case, though, they're broadcasting to him. 
So, that interaction and giving people that ability to speak is 
very, very important.
    I think the second thing is, he's right, that there is a 
base of support of the regime. This is not a hollow regime. 
This is not the meaningless NDP regime in Egypt, where nobody 
even knew what the ruling party stood for in the last few 
years. There are people who really do believe in this regime. 
And the government in Tehran is very good at feeding that base 
and mobilizing it. So, if you can find the correct message to 
undermine that, that's absolutely critical.
    The other point is, you have to make people understand 
that--again, Rudi made this point--we're not asking for 
excessive risk. But, at a certain point, you've got to take 
your frustration and activism offline. I mean, political power 
does not grow out of a Facebook account. And so, there has to 
be a certain movement at a certain point. But, if you can 
undermine the base of the regime and teach people, themselves, 
how to do that--this has been done elsewhere; there are other 
places where people have gone to people in their area and said, 
``Look, I know your husband, your uncle, your brother, your 
cousin is in the police, in the Basij. You know, I want you to 
know there's a future for them in a new democratic Iran. We're 
not after you; we're not after the little guys. We're after the 
big ones.'' And eroding the base that way is a very useful 
technique.
    Ms. Bakhtiar. First, if you don't mind, I'd like to address 
Senator Risch's question. We are, in fact doing research on the 
companies. And we don't want to name them publicly, just yet. 
But, aside from Nokia Siemens, which was the German company 
which was mentioned 2 years ago, Ericsson, the Swedish company, 
and Huawai, the Chinese company, which have been released, we 
are doing a comprehensive report.
    Senator Risch. Thank you.
    Ms. Bakhtiar. And we can forward you that information when 
it's done.
    Senator Casey. OK.
    Ms. Bakhtiar. And, as far as what to do, I think I 
mentioned it. Again, I can't stress how important it is to help 
Iranians be able to access information and have safe 
communications. Again, there's concrete ways that we can 
actually help Iranians be able to access the Internet using 
these wireless satellite-based Internet-access technologies. 
And there's also the ability to lift sanctions on the hardware 
that's needed to use this technology. But, we need to be 
providing the proper service for them. And, as long as the 
Internet, like I said, is carried in fiber optics, it's a 
losing battle for us. The sooner we can get on the wireless 
technology and the sooner we can provide it for the Iranian 
people, the better.
    And again, I can't stress the fact that there is a company 
called Eutelsat, which is the satellite company which is 
responsible for feeding Iran all of its own programming and 
also bringing in programming from abroad. We must be applying 
pressure to Eutelsat, to put pressure on Iran to stop jamming 
the satellite and the programming.
    But, as far as international institutions, I have to say, 
we've had the--we very much welcome the administration's 
engagement recently with the Human Rights Council and the 
assignment of the Special Rapporteur. That was a very 
significant achievement, and we believe it will have 
significant ramifications and be able to expose great 
injustices that are happening inside of the prisons of Iran. 
And I think that's the most important thing, is to be able to 
get information out of the country and give information back 
into the hands of the Iranian people, empowering them to create 
the environment that they need to have their voices heard.
    Senator Casey. Well, thank you all for your testimony.
    Is there anything else that you'd like to say before we 
conclude? We're just about ready to wrap up, and I want to give 
you that opportunity--I know that there are a number of things 
we did not cover. But, is there anything you wanted to say 
before we go?
    Mr. Apostolou. Can I just quickly say with regard to Rudi's 
point about Nokia Siemens networks. I think it's extremely 
important that this be pursued. They provided a monitoring 
center for mobile telephony. That's standard when you provide 
this sort of equipment, but it's standard when you provide it 
to a country that has law enforcement agencies, as opposed to 
people who impose human rights abuses. What they have done is 
that they claim to have sold that business to other companies--
and quite who those new companies are and who's doing that is 
important--because you cannot operate this sort of equipment 
without ongoing updates of both software and hardware. It's a 
very sophisticated kit. That needs to be fully investigated. 
Nokia Siemens does a tremendous amount of business in the 
United States. And, you know, many of us carry their 
telephones. They do an awful lot of U.S. Government work. And 
the potential to expose that, I think, is very important. And 
that needs to be very, very fully investigated. The two 
companies that have been named as being involved here, Trovicor 
and Perusa, and we don't really know who owns them.
    Senator Casey. Thank you very much.
    And I know that the Congress has more work to do, and the 
administration has more work to do, even though you could point 
to progress in both branches of government. But, we have more 
to do. And this hearing today, and your testimonies, will give 
us, not just inspiration, but also the information that we need 
to move forward. And we look forward to working with you as we 
move into a new chapter.
    And we have to do everything we can to meet the moral 
obligation we have, and also to recognize that, what happened 
in June 2009, and leading up to June 2009, has changed that 
country forever, even though we may not see daily 
manifestations of it on our television sets. But, I think 
what's stirred in the hearts of people in that country have 
changed it forever. And we've got to make sure that we're 
providing even more tools and more strategies to allow what is 
in the hearts of the people to be able to be fully realized. 
And I look forward to working with you on that.
    Thank you very much, and we're adjourned.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
